 Department of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERAL





    POINT- OF- SERVICE CLAIMS

MANAGEMENT SYSTEMS FOR MEDICAID





                SERVIQ"



                          Richard P. Kusserow
                          INSPECTOR GENERAL
      '0



           "1t\fc130
                                MAY 199
                         OFFICE OF INSPECTOR GENERA

 The mission of the Offce    of Inspector General (OIG), as mandated by Public Law 95-452 , as
 amended , is to protect the integrity of the Department of Health and Human Servces
                                                                                            ' (HHS)
 programs as well as the health and welfare of beneficiaries selVed by those programs.
                                                                                            This
 statutory mission is carried out through a nationwide network of audits , investigations
                                                                                          , and
 inspections conducted by three OIG operating components: the Offce of Audit Servces
                                                                                                , the
 Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also inform
 the Secretary of HHS of program, and management problems , and recommends courses to

 correct them.


                             OFFICE OF AUDIT SERVICES
The OIG' s Offce of Audit SelVices (OAS) provides all auditing servces for HHS
                                                                                 , either by
conducting audits with its own audit resources or by overseeing audit work done by others.

Audits examine the performance of HHS programs and/or its grantees and contractors in

carryg out their respective responsibilties and are intended to provide independent

assessments of HHS programs and operations in order to reduce waste , abuse
                                                                             , and

mismanagement and to promote economy and effciency throughout the Department.


                             OFFICE OF INVESTIGATIONS
The OIG' s Offce of Investigations    (01) conducts criminal , civil , and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries 

                                                                                           and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid 

                                                                                            program.
                 OFFICE OF EVALUATION AND INSPECTIONS
The OIG' s Offce of Evaluation and Inspections (DEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerabilty,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian , Ph. , Regional Inspector
General , Offce of Evaluation and Inspections , and Martha B. Kvaal , Deputy Regional
Inspector General , Offce of Evaluation and Inspections , Region I. Participating in this project
were the following people:

       Boton Region                                                     Headquarrs
       David R. Veroff   Project Leader                                 Vicki Greene
       David Schrag, 
 Lead Analyst

       Barry C. McCoy

       Deborah Skahan

       ", +~




 Department of Health and Human Servces
         OFFICE OF

    INSPECTOR GENERAL





    POINT- OF- SERVICE CLAIMS

MANAGEMENT SYSTEMS FOR MEDICAID





               ~ SERVICEs




                             Richard P. Kusserow
      t r
 "1t""30
                             INSPECTOR GENERAL

                                 OEI-OI- 91-020
                    EXECUTIVE SUMMARY
PURE
The purpose of this study is to examine the potential of point-of-servce claims
management systems for State Medicaid programs.

BACKGROUN
Point-of-servce (POS) claims management systems use computers and
telecommunications networks to perform one or            more of four related but distinct
cJaims management functions:
        (1) eJigibilty verification
        (2) claims submission
        (3) claims adjudication , and
              (4) utilzation review.



P~S systems aJIow aJI of these functions to be performed in real time-- that is , in a
matter of seconds--while or before servces are dispensed. TheoreticaJIy, any tye of
provider can access P~S systems. But most existing systems , which are in the private
sector , manage only prescription drug cJaims.

The HCF A has the authority to provide Federal funding for P~S systems if they are
enhancements to the States ' MMIS. Furthermore , the Omnibus Budget Reconciliation
Act of 1990 (OBRA 90) requires the Secretary of Health and Human Servces (HHS)
to encourage each State Medicaid program to implement P~S systems for managing
prescription drug cJaims. The act provides 90 percent Federal Financial Participation
(FFP) for the development of these systems          and authorizes the Secretary to waive
certain paperwork requirements.

Information for this study was gathered through surveys of State Medicaid agencies;
discussions with HCFA, trade and professional organizations , and private companies
involved in Medicaid and private-sector cJaims processing; a review of materials
prepared by States; and a review of business literature and government studies.

FIINGS
P~S syste
Slate   usg
                  have SQved   mone and ennced       pr adtrtin              in th onl two

              New York' s P~S system is saving milions of dollars a year by performing
              eligibility verification and utilization review.

              Massachusetts uses its P~S system for eligibility verification only. It is also
              saving milions of dollars annually.
Few State   pl to acqe P~S syst.
         Several States have had preJiminary discussions about developing P~S
        systems , but few have made commitments.

        Eight months after the passage of OBRA 90 , only one State had definite plans
        to implement a POS drug claims management system that incorporates an


                                  im
        four POS system functions.

Seer    ba hae Ii          Sta'                   of P~S   sy.
        States lack the money required to adopt new systems and do not have
        sufficient staff to research them. States fear they will miss the OBRA 90
        deadJine for enhanced Federal funding.

        Combining P~S technology with existing claims- processing systems may be
        difficult.

        State Medicaid officials fear that P~S systems would have several negative
        effects on States and their citizens.

        States and private payers do not use uniform electronic cJaims formats.   This
        complicates the implementation of P~S systems and adds to their cost.

Many State have receied   inte      or confug informtin about P~S syste.

        Key Medicaid systems staff in 19 States did not receive information about
        P~S technology from HCFA.

        Private telecommunications and drug claims- processing companies have been
        active in promoting P~S technology, but they lack experience in Medicaid
        environmen ts.

        The HCF A has issued unclear policy statements regarding specific
        requirements for procuring P~S systems.

RECOMMNDATIONS

The HCFA should collect information on P~S technology and regularly distribute it to
States. The HCFA should ilustrate alternative methods of using P~S technology,
offer strategies for procuring cost-effective systems , and facilitate communication
between States planning to procure or already using P~S systems.

The HCF A should clarify the operational requirements for enhanced Federal funding
of P~S systems.
The HCF A should promote the development of standard electronic cJaims formats
and their use by State Medicaid agencies. The HCF A, State Medicaid Directors
Association (SMDA), American National Standards Institute (ANSI), and National
Council for Prescription Drug Programs (NCPDP) should work together toward these
goals.

State Medicaid agencies that develop P~S claims processing systems should ensure
that they are compatible with standard electronic claims formats as the formats
become available.

COMM
We received formal comments on our draft report from HCFA, SMDA, ANSI
NCPDP , and the Assistant Secretary for Planning and Evaluation (ASPE). These
comments , and our responses to them , are reproduced in appendix E.

AJI of these organizations expressed support for our .recommendations relating to the
development and use of standard claim formats. The HCF A and ASPE disagreed
with our original recommendation that HCF A produce and distribute to States a guide
to P~S systems. Both stated that such an effort was premature. Our revised
recommendation better reflects our belief that HCF A should playa continual
leadership role in informing States about advances in P~S technology. The HCF A
also stated that it had satisfied our original recommendations for HCF A to cJarify its
policies on enhanced Federal Financial Participation for P~S systems. We agreed that
recent HCF A guidelines make sufficiently clear that funding will continue beyond the
OBRA 90 deadline , but we stil contend that the operational requirements require
additional clarification.

We also received informal comments from several organizations interested in the
subject of p~s systems for the Medicaid program. Where appropriate , we have
incorporated their suggestions into the report.

EPILUE
Since our draft report was written in December 1991 , there have been several
important developments. The NCPDP released a new standard drug claim format
that is intended to accommodate Medicaid claims. Work progressed on P~S systems
in Alabama , Arkansas , and Missouri. California s request for bids on its MMIS
contract included specifications for P~S claims processing, and other States are
expected to follow suit. All major MMIS suppliers are now developing p~s
technology, meaning that P~S systems will likely find increasing use in the Medicaid
program.
                                                                                                      .......................
                                                                                       . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. ............. .. .. ....
                         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                                   TABLE OF CONTENTS

                                                                                                                                                          PAGE

EXECUTIVE                    SUMY
INODUCTION. .                                                                                                                        . . . . . . . . . . . . 1




FINDINGS                                                                                                           ...................3
          P~S systems in New York and Massachusetts                                                .........................3
          Plans in other States                                                                                     ........4
          Barrers to implementation. 
                                                                                  ....6
          Inadequate and confuing information

RECOMMENDATIONS ....................


COMMENTS ON THE                                DRA               REPORT

EPILOGUE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

APPENDICES

A. The Case for P~S Systems in Medicaid Programs . . . . . . . . . . . . . . . . . . . . . A­

B. Methodology                                                                                                             . . . . . . . . . . . . .. B­
C. Exsting and Proposed Medicaid                                     p~s Systems                 . . . . . . . . . . . . . . . . . . . . . . .. C­
D. Explanation of Savings Estimates.                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D­



E. Detailed Comments on the Draft Report and
          OIG Response to the Comments                                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. E­
F. Notes. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. F­
                            INTRODUCTION

PURE
The purpose of this study is to examine the potential of point-of-servce cJaims
management systems for State Medicaid programs.

BACKGROUN
Automated Medicaid cJaims       processing has long been a goal of the Health Care
Financing Administration (HCF A). Through its technical and financial support of
Medicaid Management Information Systems (MMIS) and electronic cJaims submission
HCF A has helped States reduce their claims- processing costs and increase their ability
to detect improper expenditures.

A relatively new cJaims- processing method , known variously as point-of-servce (POS),
point-of-sale , on- line , or real-time cJaims management , is now availatle. Point-of­
service and point-of-sale both abbreviated as P~S , refer to the site of cJaims
processing. Claims are processed while          recipients are in providers ' stores or offices.
On- line      refers to the connection , usuaJly through telephone Jines , between providers
and claims processors during the transactions.
                                                       Real- time simply means instant-- cJaims
are processed in a matter of seconds rather than days or weeks after submission.
Real- time also implies interactive communication between providers and processors.
This new technology is intended to improve the speed and power of claims- processing
systems while lowering their costs. 1 A discussion of the potential benefits to Medicaid
programs of P~S systems is presented in appendix A.

P~S claims management systems use computers and telecommunications networks to
perform one or more of four related but distinct claims management functions:
(1) eligibiJty verification , (2) claims submission , (3) claims adjudication 2 and (4)
utilization review. TheoreticaJly, any tye of provider can access P~S systems. But
most existing systems , which are in the private sector , manage only prescription drug
claims.

The HCFA has the authority to provide Federal funding for P~S systems if they are
enhancements to the States ' MMIS. Furthermore, the Omnibus Budget Reconciliation
Act of 199 (OBRA 90) requires the Secretary of Health and Human Servces (HHS)
to encourage each State Medicaid program to implement P~S systems for managing
prescription drug claims. 3 The act provides 90 percent Federal Financial
Participation (FFP) for the development of these systems and authorizes the Secretary
to waive certain paperwork requirements.
MEOOOLOY
The data presented in this report were gathered through the foHowing   methods:

       (1) telephone intervews with Medicaid cJaims management staff in 50 States;
       (2) a maiJ survey to which 45 State Medicaid agencies responded;
       (3) telephone intervews with HCF A systems staff in each of the 10 regional
       offices;
      (4) informal discussions with staff from HCFA' s Medicaid Bureau;
      (5) telephone intervews with representatives from 14 private companies
      involved in Medicaid and private-sector drug claims processing;
      (6) telephone intervews with 7 trade or professional organiztions representing
      pharmacists and other providers;
      (7) a review of advance planning documents and other materials concerning
      P~S systems prepared by 8 States;
      (8) a review of data coHected in surveys conducted by HCF A and the American
      PubJic Welfare Association; and
      (9) a review of professional and government literature.

We present details on each of these methods in appendix B.

We conducted our research from March through November 1991. Our intervews with
Sta!es , which contributed the bulk of our data , were completed in June 1991. Where
feasible , we have supplemented this final version of our report with more current
information.
                                 FINDINGS

POS SYSTMS HAVE SAVED MONEY AN           PROORA    ENCE
ADMlTION IN TH      ONLY TWO STATE USING                         TH.
As we explain in appendix A, P~S systems could perform a multitude of cJaims
management functions and produce a number of benefits for the Medicaid program.
They could reduce program and administrative expenditures , improve provider
relations , offer better program utiliztion information , and help integrate multiple
benefit programs. Unfortunately, their current use by State Medicaid programs is so
Jimited that predictions of their overaJl value would be highly speculative. Rather than
confuse theoretical benefits with actual experience, we focus here on their
demonstrated effectiveness in Medicaid environments.

New York's P~S system is savig
veratin and uttin rev.

                                  mins of doUa a yea by peormg           elil
New York' s Electronic Medicaid Eligibilty Verification System (EMEVS) has been in
place since November 1986. AJI providers , incJuding pharmacists , physicians , hospitals
and clinics , can access the system 24 hours a day through P~S terminals or standard
telephones. The terminals accept information from providers , caJl the EMEVS
contractor s computers automaticaJly, and respond with visual messages that can be
sent to a small printer. Providers without   P~S terminals use an automated voice
response (A VR) system , which prompts them to input information on a touch- tone
telephone and responds with audible messages. Human operators are used if the
other two systems are not functioning. In addition to eligibility status , EMEVS gives
providers information on servce restrictions and third- part coverage. The HCF A
considered EMEVS to be an enhancement to New York' s MMIS , and awarded the
State enhanced FFP: 90 percent of development costs and 75 percent of operational
costs.

The high start-up and operating costs of EMEVS were justified by its ability to
produce even higher savings for the Medicaid program. At least initially, most of the
savings resulted from the State s conversion from month-specific to day-specific
eligibility. Before EMEVS , New York' s only method of terminating eligibility was to
stop mailing Medicaid ID cards. If a recipient were terminated from the program on
the day after a card was mailed to him , he could receive a full month of benefits that
he was not entitled to. Now , however , the State can terminate a recipient s benefits
instantly at any point during the month. EMEVS enforces the termination: each time
a recipient requests medical services , the provider uses EMEVS to determine whether
he is stil eligible. The State has calculated that the gross savings from day-specific
eligibility are over $10 milion per year.
The State has estimated savings from EMEVS in two additional areas. When EMEVS
was introduced , New York ceased mailng paper il cards to recipients every month
and began issuing durable plastic il cards. The annual savings on postage from using
plastic ID cards is estimated at $4. 5 milion. s New York has just started to use
EMEVS to enforce servce restrictions and thresholds. If its initial estimates are
correct , the savings from this function wiU be much higher: perhaps $200 milion per
year.

EMEVS also monitors and controls servces ordered and dispensed by certain high-
volume providers. The State may require physicians to " post " prescriptions or
laboratory tests to the system as the servces are ordered. Pharmacies and
laboratories " cJear    , delete--each order from the system as they flU the orders.
EMEVS keeps records that aUow the State to deny payment for servces that were not
posted and cJeared. This function prevents laboratories from performing extra
unnecessary tests and prevents pharmacies from filing prescriptions that were never
written or were wrtten on stolen prescription pads.

Masachutt uses it P~S syste for elgiil veratin onl. It is alo savig mins
of dollrs   anll.
In Massachusetts , the Recipient Eligibility Verification System (REVS) has been
operational since December 1988. Like New York, Massachusetts secured enhanced
FFP from HCF A to develop and operate REVS. The system uses P~S terminals
A VR , and human telephone operators to enforce day-specific eligibility. It also sends
providers messages about potential third- party coverage , and servce restrictions. AIl
tyes of providers use this system.
Massachusetts estimates that day-specific eligibility saved $8. 5 milion in REVS' s first
fuU year of operation (February 1989- January 199). 8 The State predicts higher
annual savings in future years. It estimates that it saves $800 00 a year     by using
plastic rather than paper ID cards.

As of October 1991 ,   neither EMEVS nor REVS were performing claims submission
claims adjudication , or prospective drug utilization review (pro- DUR). New York had
plans to add Jimited pro- DUR to EMEVS in November 1991 and full-scale pro- DUR
with claims submission in June 1992. Massachusetts was considering expanding REVS
to aUow pharmacy claims submission and pro- DUR as well.

FEW STATE PLA TO ACQUI POS SYSTMS.

Seerl Stale have ha prliry dicuns                ahow deelopig P~S sysrems hut few
have   ma comm.
In the summer of 1991, there was a lot of discussion at the State level about improving
eligibility policies and eligibility verification systems. Twenty- five States had definite
plans for improvement , 19 had discussed it without making definite plans , and only 6
had no plans at aJI. Nevertheless , only 10 States had definite plans to develop P~S
eJigibility verification systems. 10 These plans are summaried in table 1. Several

other States were making improvements on a more limited sealeY


                                                    TABLE 1:

         STATE WI               DEFI             PLAS TO         IMLE PO SYSTS
                                                                                          Claims
     State              Eligibilty Verification              Claims Submission            Adjudication
     Alabama            Multiple proder ty; MSE              Multiple proder
     Arkanss            Multiple proder ty; DSE              Multiple proder              Pharmacy only

     California         Multiple proder ty; DSE
     Idaho              Pharmacy only; MSE

     Iowa                                                    Pharmacy only                Nc'

     Ilinois            Pharmacy only; MSE                   Pharmcy only                 Pharmacy only
     Maine              Add A VR only; DSE                   Alredy panially              Multiple proder
                                                             implemented

     Masschusetts       Alredy implemented                   Pharmacy only

     Minnesta           Multiple provider ty; MSE

     Missuri            Pharmacy only; DSE                   Pharmacy only                Pharmacy only
     New York           Alredy implemented                   Pharmacy only

     Nonh Carolina      Multiple proder ty; DSE
    Rhode Island        Pharmacy and hospital only; DSE      Pharmacy and hospital only   Pharmacy and hospital
                                                                                          only
    Texs                Pharmacy only; MSE                   Pharmacy only                Pharmacy only

   DSE = Day-speific Eligibility MSE = Month-speific Eligibility; AVR = Automated Voice Response
   Source: OIG SUlVey of 50 State Medicaid agencies , June 1991.




Like eligibiJity verification , electronic cJaims submission was the subject of much
discussion and planning at the State level. Twenty- five States had definite plans to
improve their cJaims submission capabilities , 18 had discussed it without making
definite plans , and 7 had no plans to change. Again , however , few States were
designing P~S systems (table 1 ).

Only 6 States had definite plans to perform P~S claims adjudication (table 1).
Another 29 States had discussed P~S claims adjudication without making definite
plans , while 15 States had no intention to change.
It is more difficult to determine States ' plans regarding utiJiztion review , because we
asked States only about their plans for utiJiztion review other than drug utiJiztion
reviewP Arkansas and New York planned to impose servce limitations using P~S
systems. Massachusetts win use REVS to transmit the names of primary physicians for
recipients enrolJed in its managed care program. Kansas , Montana , and New York
were investigating ways for providers, when necessary, to obtain prior authorization
electronicalJy. The American PubJic Welfare Association reports that" in April 1991 , 15
States had P~S pro- DUR " under consideration or under development. "14

           11 af th page of OBRA 90, on on State ha de
im
Eigh

futins.
              a P~S d1 claim malUgem syte
                                                                 plns to
                                                   th inorte al fou P~S syte

Congress s vision in OBRA 90 was that many if not aU States would procure
comprehensive pharmacy cJaims management systems to perform eJigibility
verification , cJaims submission, cJaims adjudication , and pro- DUR in real time. 5 As
of June 1991 ,  only Missouri had announced definite plans to procure that kind
system. Arkansas and minois had plans for systems that would perform the first three
functions , but not pro- DURo (A summary of their plans is presented in appendix C
along with a summary of the New York and Massachusetts systems. ) Nearly half the
States reported that they were considering fulJy functional P~S systems , but few had
gone beyond the discussion stage. 16 Iowa had for some time been contemplating
such a system ,   but had not reached the same level of commitment. Rhode Island
planned to add P~S capabilities , but as part of a total MMIS procurement. Texas
had similar plans for its next MMIS. Oregon took its first steps toward developing"     a
comprehensive system by issuing a request for information in April 1991.

SEVERA BARRS HAVE
SYSTEMS.
                                  LI         STATE' IMIEMENTATION OF POS

State lack th mone reqed to adpt ne syste an do not have              sujJ
                                                                staff to
researchth    State fear th wi mi th OBRA 90 deadine for ennced                Fedl
fug.
Procuring a P~S system requires milions of dolJars and years of work.
Massachusetts s REVS took over a year and $2. 5 milion to develop and costs
$3.5 milion a year to operateP New York' s EMEVS took about two years and
$3. 5 milion to develop, and costs approximately $6 milion a year    to operate. IS
When we asked States to assign importance ratings to 12 potential barriers to
comprehensive P~S system implementation , their number one response was " our state
doesn t have the money necessary to procure a comprehensive real-time system , no
matter how much it might save in the future. " Their number two response was " our
staff doesn t have the time to assess , procure , and implement a real-time system.
(Table 2 displays the mean ratings for each barrier. )   Several respondents noted    that
even if HCFA provided 90 percent of the funds for development and 75 percent of
the funds for operations , their States stil could not come up with the rest of the money.
                                                  TABlE 2:

     STATE         RAGS OF IMRTANCE OF VAROUS FAcrRS

                      PREVENTG TIM FROM                                   AOPTG
                            COMPRESIV PO SYSTS

             SCALE: 1 = WNot          at all a factor; W   5 = W
                                                                   An extremely important factor

FAcrOR                                                                                MEAN         NUMBER
                                                                                      RATING       OF 5'

Our State doen t have the money         necry
                                           to procre a comprehensive                  3.55
real-time sytem , no matter how much it might save in the future.

Our staff doesn t have the time to asss , procure , and implement a real-
time sytem.


We are not convinced that real-time sytems will save money.


We may go to real time , but we want to wait until the current          fil agent
contract expires to make the proc easier.

We haven t gotten enough guidance from HCFA about why we should
imQlement real- time sytems and what the Federal matching rate would
be".
Our current MMIS would not be compatible with a real- time sytem.

Our staff doesn t have the technical exprtise to asss , procure , and                 2.55
implement a real- time sytem.

Our current    fil agent contract makes it diffcult to add real-time
capabilities. .




Our current computer sytems are not sophisticated enough for us to
benefit from real- time capability.

Current State laws or regulations prohibit us from implementing some or               1.45
all of the functions that real- time sytems would perform.

Real- time sytems would hurt our relationship with recpients.                         1.45

Real-time sytems would hurt our relationship with provders.                           1.43




       SOURCE: OIG survey of 50 State Medicaid agencies , June 1991. (N=49 respondents
       except as noted.

       . The 15 States without fical agents did not respond to these                questions.

       .. AIl 50 States   responded to this question.
                                   , "                      ..


Respondents from Arkansas and New York , who have recent experience in planning
and implementing P~S systems , acknowledge that it is a costly and difficult process.
An offcial from Arkansas told us This has been lots and lots of work. It is
tremendously time consuming to plan for these changes. .     It has taken us one and
a half years to do this. " In New York , EMEVS was developed at a time when staff
and money were readily available. Medicaid staff there doubted that many States
would face similar surpluses today.

OBRA 90 may have inadvertently compounded the problem. As an incentive for
States to adoptPOS pharmacy cJaims management systems quickJy, it specified that
enhanced FFP would be granted for the systems in FY 1991 and 1992 only. Several
States complained , both to us and to HCFA directly, that this time Jimit would prevent
them from developing POS systems rather than encourage them. In fact , however
enhanced FFP for P~S systems wi)) be available beyond fiscal year 1992.

Combing P~S tehnlo wi             extig claim-pesg syste ma be
Exsting Medicaid Management Information Systems (MMIS) are designed to process
claims in large batches , not in real time. Changing them to accommodate real-time
p~s processing will be expensive and may be difficult because current MMIS
operators , whether they are State agencies or fiscal agents under contract , have little
or no experience with P~S technology. This fact might lead States to work with
separate , specialized contractors in developing P~S systems , as New York and
Massachusetts did. By retaining separate contractors , States would also benefit from
competitive bidding--a process that should result in the lowest possible cost for the
States.

Hiring a separate P~S system contractor could cause problems , however. Medicaid
agencies would have to incur the burden and expense of preparing and conducting the
contract bid. 20 Furthermore , HCFA' s Medicaid Bureau Director has warned: "
States soJicit for a separate drug processor it may be necessary to renegotiate the
terms of the present fiscal agent (FA) contract , since a large volume and low-
processing cost tye of claim will be removed from the FA. 1I21 This would likely
result in higher rates for processing the remaining claims.

Apparently, many States interested in P~S technology plan to wait until their current
fiscal agent contracts expire and then build P~S requirements into their next MMlS
contracts. Ten States said this was an extremely important factor in their decision not
to develop P~S systems (table 2). Alabama , Arkansas , and Missouri are already
working with their fiscal agents to add P~S technology. It may be that the States most
likely to hire separate P~S system contractors are those without fiscal agents. Ilinois
is an early example of a State in this position.
                                  tht P~S sy wo hae seer neatie efects on
             th ci.
State Medaid offls fea
State an
Many respondents noted a potential for POS systems , with their heavy reJiance on
computers and telecommunications , to create quaJity control problems. Their        concern
is well founded. Any such system is vulnerable to natural disasters and industrial
accidents.

In addition to askingMedicaid officials about barrers to implementing comprehensive
P~S systems , we soJicited advantages and disadvantages of having P~S systems
perform each of the four cJaims management functions. Along with many advantages
which mirrored the benefits of P~S systems described in appendix A, we heard a
diverse set of disadvantages. Foremost among them , consistent with the discussion
above , were the drain on States ' funds and staff time. There were several others
however , which help explain why there has been such reluctance to adopt P~S
technology.

       Eligibilty verification



Although proponents     beJieve that P~S systems would be popular with providers , some
States feel that asking providers to use a P~S system each time they see a Medicaid
recipient would be an added burden. Currently, providers in most States can verify
eligibility simply by looking at an ID card; they need not make a telephone call as
well. Furthermore , providers in fourteen States can already use A VR systems if they
doubt the validity of an ID card or if a patient forgets to bring his or her card.

The costs of P~S systems in New York , Massachusetts , and Arkansas have been
justified by the savings created by conversion to day-specific eligibility. However
several respondents disagreed that day-specific eligibility was desirable. Some worried
that by terminating eligibilty sooner they would deny medical care to those in need.
Others feared that although the care would stil be provided at no cost to the patient
the costs would be born wholly by the State or its medical community rather than
shared with the Federal Government. A few respondents thought their States ' master
eligibility files could not be updated fast enough to take advantage of day-specific
eligibility, and some thought that certain categories of recipients were guaranteed full-
month Medicaid eligibility by other entitlement programs.

Reports from Massachusetts    suggest that P~S eligibility verification systems can cause
problems for recipients. 24 Apparently, recipients there are now less sure whether
they are eligible for Medicaid at any given time , because there is no expiration date on
their plastic ID cards. Some recipients do not find out they are ineligible until they try
to obtain servces. Also , REVS can make mistakes , and these mistakes are reportedly
difficult to correct. Providers are apparently reluctant to call human operators to
verify that recipients identified as ineligible are indeed so. Finally, replacing a plastic
REVS card can take weeks or months. In the meantime , recipients must travel to
local welfare offices every ten days to receive a temporary paper replacement card.
          Claims submission



Many respondents were happy with their current cJaims      submission capacities and did
not believe that P~S submission would be a major improvement. States not
contemplating changes in submission capabilties already have hi her rates for
electronic submission than states planning or discussing changes. Nine respondents
felt that real- time submission offers no advantages over batched electronic submission.

Medicaid officials in three States thought that real-time submission would be an
undesirable burden on providers. This burden might fan most heavily on providers of
long- tenn care , who submit dozens if not hundreds of cJaims on a regular basis.
Because their cJaims are generany simple updates of prior cJaims , batch submission
cJearly makes more sense for them than individual , real- time submission. The
American Society of Consultant Pharmacists , whose members provide pharmacy
servces to nursing homes , strongly opposes any requirements for real- time submission
and adjudication.

One of the expected advantages of P~S claims submission      is lower denial rates. But
pharmacy cJaims , which win probably be the first tye of cJaims submitted on- line   to
Medicaid programs , are already denied less frequently than most other tyes of
c1aims.

          Claims adjudication

Three respondents mentioned an interesting potential problem with P~S claims
adjudication. Providers    would have the opportunity to submit a claim before
dispensing servces. If   the cJaim were adjudicated instantly and the provider felt that
the reimbursement calculated was inadequate , he or she could decide not to provide
servces. One respondent told us that such a decision would be against the law , even
if no reimbursement were claimed.

Several respondents also thought that real-time adjudication would weaken States
cash flow. This fear may be unfounded , because faster adjudication need not lead to
faster payment. Even those States with real- time adjudication could maintain their
current payment schedules.

Respondents were particularly adamant that P~S claims adjudication would be too
costly. Most Medicaid claims processing is now performed in the evenings and on
weekends , when the demand for State computer time is low. States believe that
processing cJaims during normal business hours would be far too expensive. They are
also very concerned about the costs of keeping telephone lines between providers and
the State or fiscal agent open during what could be a lengthy adjudication process.
 ~~~     *:y : "
            . -               .,       :'   -'   ?-q             '" .
                                                                . -                 ~~~   .;        ;::         ".-,..  .. "",
                                                                                                              - -" -''''-
                                                                                                                      ' ... "       ',   ..
                                                                                                                             . .'- ',. .,- ~~~
                                                                                                                                           ' ..", ',. "
                                                                                                                                                   ,': :
                                                                                                                                            .: --+..-        q." ,




                  Utilization review

          Respondents ' concerns about POS utiliztion review fell along the same lines as
          concerns about the other functions. Respondents felt that their current methods are
          adequate , and they worred about increasd burdens on providers , increased attempts
          at fraud , and negative effects on recipients. Several stressed that estabJishing, for
          other health care servces , the kind of prospective utilition review now available for
          pharmacy would be prohibitively complicated.

         State an
         th   imtin  prat pa
                               of P~S
                                       do not us
                                            sy an                     unor     el   cla
                                                                             ad th co      to
                                                                                                                          for. 7h

         POS cJaims management systems cannotfu ction unless aU parties involved-- providers
         hardware and software developers , telecmmunications networks , and bil
         processors--agree on what inormatiQ        , SY D1 wiJlhandle and how it wiJI be
         organied. 27 Standard fonpats all.ow                  e identical claim forms for aJI bil
         processors and to communicate with:t #ir\:.     slrig t e equipment and
         telecommunications networks of theirchoice; Administrative costs ar increased in
         the absence of standards because eachprov        processor pair must " reinvent the
         wheeL" Currently, there is no           ctro licfotmat for any tye of cJaim that is
                                                       sIngle

         acceptable by aU State Medicaidagen
                                                                                               i:
                                                                            i;::'

        . The;:Nltionl ,Co.rinciLforPrescr( ,                                                                (NCPDP), a nonprofit agency,
          tia rliaditionally been' looked l(rby:                                                               processing industry for
         standards. Their Uniyersal (paper                                                                CF) and comparable electronic
                                                                      :r:
         fotm       0wi as Versio                                                                          rby practicaJIy every pharmacy,
         claIms processor , and' drugb~nef!r '                                                            tHe country, with the exception of
         government programs like Medi                                                                      and Version 1 were designed
        , before the 34v  orpro..     aif                                                                   pha            acy claims processing, and
                                                                                                              ted a new electronic format:


         data - i;tIi
                                                                                                                           ' mP9n               , parpcularly
       . - so ,                        us ,                                                                                      esign1geirowp unique

                                                 :f,
                                                                                                                                 , T

                                                                                                                                 th ' Y ersion' 3.2. This

                                                                                                                             but      rec6i1l1rtends - three

                                                                                                                      I4aim ope fOr wQrker

                                                                                                                    March l99, this, "\1ersidn

                                                                                                                            in Pharmacy, '            which ha(j
                                                                                                                  " d4hat,the recommended- .
                                                                                                                                  med in Arkansa ' antf:
                                                                                                                                         Jl::
                                                                                                                                                           tyes of
                                                                                                                                                           rmation




t?j
1-__
physician cJaim form--the HCF A 1500- did not have a standard electronic format until
July 1991.28 A committee of the American National Standards Institute (ANSI) is
planning to develop several standards for use in health care cJaims processing, but as
of June 1991 none of their formats had progressed beyond draft status , and none had
been tested widely. 29 The " 837 Health Oaim " standard should be available to the
pubJic in October 1992. This standard , which is compatible with physician , hospital
and even pharmacy cJaims, is designed for batch processing systems. But an ANSI
workgroup is investigating ways to make it useable by P~S systems.

MA STATE                   HAVE     REIVD INADEQUATE OR CONFSING
INORMTION ABUT PO SYSTS.

Key Medaid syst             stff        in   19   State di   not   reeie infortin   abou   P~S tehnlo
frm HCFA.


According to HCF A, HCF A regional office staff had informed most if not all States
about P~S systems by mid-April 1991. Nevertheless , respondents from 19 States
reported in Mayor June 1991 that they had not received information about P~S
systems from either HCF A headquarters in Baltimore or their local HCF A regional
office. It is possible that other Medicaid officials in those States had received the
information from HCF A without informing our respondents. Even if this is the case
we find it significant that our respondents--all senior cJaims systems staff--were
unaware of the information. Another explanation of our survey results is that HCF A'
information was not useful enough to have been recalled by our respondents. The
information that HCF A did provide in most cases consisted of brief letters notifyng
the States of OBRA 90' s P~S sections and offering HCF A' s initial interpretation of
the statute s requirement. It does not appear that HCF A made a concerted effort to
explain why States might or might not want to acquire                    P~S systems.
That HCF A did not rush to promote P~S systems to States is understandable.
Certainly, HCF A' s top priority in implementing OBRA 90 concerned the drug rebate
rather than the cJaims- processing provisions. Also , some regional offices apparently
saw their proper role as evaluators of proposals brought to them by States , rather than
as proponents of any particular technology. Finally, HCFA managers knew that
private vendors were already selling P~S eligibility verification systems to providers in
several States. The costs of these systems were borne entirely by providers , and it was
suggested to us that HCF A saw no reason to replace these systems using Federal
money.

Lack of guidance from HCFA about P~S systems may have kept some States from
moving to acquire them. Overall , it was the fifth most important factor restraining
States (table 2), and 10 States rated it an " extremely important factor. " However
respondents in 31 States       receive information about P~S systems from either
                                  did

HCF A headquarters , their HCF A regional office , or both. These respondents , not
surprisingly, rated lack of guidance from HCFA as a less important factor than did
their counterparts who had not received information from HCF A. 30 Regional offices
                                                                    no region did an


        te
did not appear to be systematic about providing information. In
respondents either receive or not receive information.

Prate
prmog      P~S   tehn, but thdrlakcla-
                             an
                                    ere                  co
                                      presgin Medaid hae be actie in
                                                    envinm.
By no means have States been deprived of information about P~S systems. Private
vendors of POS technology have been more active than any other group in supplying
it. Thirt-four States had received information from one or more vendors. In fact, it
may have been the vendors who were most responsible for the electronic cJaims
management provisions of OBRA 90 to begin with. They had developed P~S
technology in anticipation of the Medicare drug benefit and accompanying P~S system
development. When the drug benefit was repealed along with the bulk of the
Catastrophic Coverage Act , the vendors started looking for new markets for their
technology. Medicaid programs were a natural target. Congress, in fact , reJied on
data suppJied by two vendors to estimate the cost- benefit of Medicaid P~S systems.

The problem with relying entirely on private vendors to supply information about P~S
systems is that their experience in the private sector is , in many ways , very different
from what they would face in operating Medicaid systems:

        Private vendors ' cJaims- processing rates cannot be compared to Medicaid
        cJaims- processing rates. Many private vendors process only drug cJaims
        whereas Medicaid programs process far more complicated claims as well.

        Private vendors were able to cJaim large savings for their clients largely because
        their cJients were previously using only paper cJaims. Medicaid programs , by
        accepting a large volume of electronic cJaims , have already realized much of
        those savings.



        Private vendors now process a much smaller claim volume than Medicaid
        programs. For example ,  PCS , Inc. , the oldest and largest drug cJaim processor
        handles 100 milion drug cJaims a year nationwide. In contrast , the annual
        combined volume of drug claims in the New York , California , and Ilinois
        Medicaid programs alone is over 77 milion. One cannot assume that vendors
        could absorb such an increase in volume with ease.

        Private-sector claims may be easier to process than Medicaid claims , even when
        only pharmacy cJaims are considered. Incoming claims of both
                                                                        tyes must be
        compared to historical data to check for duplication and other problems.
        Private-sector processors generally use 3 to 13 months ' worth of data for this
        procedure. State Medicaid programs , on the other hand , use between 8 and 96
        months of history, with an average of 24 months. Another factor making
        Medicaid claims more complex than private sector claims is third- party
        coverage identification and biling (see appendix A).
                                                                                    , . . .





    is
prg sy.
Th     unle poli stte rearg sp
     HCFA hi
                P~S
                                                                 reem         for

For a year after the passage of OBRA 90 it was difficult to determine exactly how
HCFA would respond to State requests for enhanced FF. The HCFA did not issue
any final rules or guideJines regarding P~S systems until January 1992. In the interim
HCFA' s draft poJicies and informal comments raised questions about which functions
P~S systems had to perform in order to qualify for enhanced FF , and whether States
had to procure POS systems by competitive bid. With regard to the functional
specifications , HCFA' s poJicy remains uncJear.

       Operarional requuemen

OBRA 90 made specific reference to " electronic cJaims management" (ECM) systems
and decJared them eligible for enhanced FFP. The enhanced funding, however , was to
be provided under the same section of Title XIX as other MMIS enhancements.
Operational requirements for funding under that section are wrtten by HCFA and
pubJished in the State Medicaid Manual (SMM). Therefore , in specifyng what tyes
of P~S systems would be eJigible for enhanced FFP , HCFA had to reconcile
Congress s directive regarding ECM systems for drug cJaims with its own rules for P~S
systems in general. Early attempts led to confusion. They incJuded a memorandum in
March 1991 and draft additions to the SMM released in April and October 1991:

      March       1991. A memo on the subject of Electronic Claims Management (ECM)
       systems dated March 15 , 1991 , from the Medicaid Bureau Director to all
       HCF A Regional Administrators , provided background information on the
       OBRA 90 legislation and included the following passage:

       The functional requirements listed below must be contained in the State s ECM
       system in order for (a Request For Proposals or Advanced Planning Document)
       for the development of an ECM system for drug cJaims to be approved at the
       enhanced matching rate of 90 percent.   The system   must perform all of the
                          on line using real- time processing: eligibility verifications
      following funcrions 


       cJaims data capture. . . and claims adjudication. (emphasis added)


      April 1991. A draft SMM addition stated that P~S systems that performed
      eJigibility verification alone would be eligible for enhanced FFP. Also eligible
      would be P~S systems that performed eligibilty verification and claims
      submission. The draft , however , specified that ECM systems for drug claims
      were subject to an entirely different set of rules.

      October  1991. The next draft SMM addition included rules for ECM systems.
      It stated that " OBRA 90 contemplated the use of ECM for adjudicating
      outpatient drug claims. In fact , you may use an ECM system for adjudicating
      any or all claims on- line , and in a real time environment. " It restricted
               enhanced FFP for ECM systems to those that perform aU three functions-­
               eJigibiJty verification , cJaims submission   and   cJaims adjudication.


               January         1992. The final version of the SMM addition contained two changes
               from the October 1991       draft with respect to ECM. First , it struck the sentence
               stating that States " may use an ECM system for adjudicating any or aU claims
               on- Jine , and in a real time environment. " Second , it added language specifyng
               that "an ECM system is limited to processing covered outpatient drugs. . . .
               The SMM stil does not specificaUy state whether enhanced FF is available for
               P~S systems which handle all tyes of cJaims , including drug claims, but which
               do not perform real- time adjudication. Nor does it state whether enhanced
               FFP is available for P~S systems that perform all functions for aU tyes of
               cJaims.

It is difficult to reconcile the requirements. For systems that do     not   process drug
cJaims , the rules are cJear. To qualify for enhanced FFP , the systems must perform
eJigibiJty verification , or eligibility verification and cJaims submission , or eligibility
verification             and         cJaims adjudication. But OBRA 90 and the
                                cJaims submission   and

March memo indicated that drug cJaims processing systems had to perform aU three
functions. What functions must be performed by systems that process drug cJaims and
other claims is uncJear.

Another problem for the States relating to P~S system functions involves prospective
drug utilization review. In addition to providing enhanced FFP for P~S systems
OBRA 90 provides funding (at an unspecified level) for up to 10 demonstration
projects. 33 The projects would determine the cost-effectiveness of adding pro- DUR
capabiJties to P~S systems. Some States are already convinced that P~S systems are
not worth having unless pro- DUR is included. These States have chosen to put their
P~S system development plans on hold , because demonstration project money and
P~S system money are awarded by two separate HCF A offices. The solicitation for
demonstration project applications wiU not be issued untiJ the spring of 1992.
Although States are required to have some form of pro- DUR by January 1993 , the
Secretary s report to Congress on the results of the demonstration project is not due
untiJ January 1994.

               Competitive biding

The HCF A' s   requirements for competition were also unclear for several months after
the passage of OBRA 90. The law aUows enhanced FFP for drug claim ECM systems
 if the State acquires (its system) through (the) applicable competitive procurement
process. " This was reinforced in a memorandum of understanding between staff of the
Senate Special Committee on Aging and the Medicaid Bureau: "The requirement for
competitive procurement is specifically intended to preclude States from sim
amending existing contracts in the absence of an open, competitive process, Ely The
HCFA, however , has for years aUowed enhanced FFP for MMIS enhancements , even
when they are procured through fiscal agent contract amendments Tather than
competitive bid. A few States (Arkansas and Missouri , for example) have already
agreed with their fiscal agents on plans for P~S system implementation and have
secured enhanced funding from their regional offces.

HCF A' s interpretation of the OBRA 90 provisions and the Senate Aging Committee
instructions were in flux during the summer of 1991. At a July conference on MMIS
developments , an official from HCF A headquarters stated that OBRA 90 required
competitive procurement under most if not aU circumstances. In the discussion that
foUowed , it became cJear that some regional office staff disagreed with his
interpretation. In a September letter to HCFA, the chairman of the Agng Committee
reversed the Committee s position on the meaning of the competitive requirement
provision:

      I beJieve that it would be consistent with the intent of the legislation to permit
      a state to amend its current FI (fiscal intermediary) contract to a))ow the FI to
      develop and implement the system (in lieu of holding a separate competition
      for the ECM system) as long (as J state competitive procurement processes for
      any amendments or change orders are folJowed.

FinaUy, on November 7 , HCFA released a six- page memo to State Medicaid directors
specifyng the circumstances under which separate competitive procurement is and is
not required. Competitive procurement is mandated for new telecommunications
networks , P~S devices for providers , and separate drug claims processors. Fiscal
agent contract amendments are permitted , when cost justified , for other goods and
servces.
                   RECOMMENDATIONS

Their apparent success in New York, Massachusetts , and the private sector indicates
that P~S systems could be a valuable contribution to health care cJaims processing.
States seeking to reduce administrative costs ,   having problems stemming from
information or communication weaknesses , or needing to improve provider relations
might we)) find solutions with POS systems. The HCFA, as a partial payer of
Medicaid program and operating costs , would share in the benefits provided by these
systems. Therefore , we recommend that HCFA take several steps to support and
faciJtate State efforts to investigate and procure P~S systems. We also make a
recommendation for States that do choose to procure P~S systems.

Th HCFA    sho
StJtes. Th HCFA
                coHect
                   sho
                          informtin P~S tehnlo an
                                         on

                       ilte alJtie meth of usg P~S tehnlo, offer
                                                                 reg ditrut
                                                              it to

stte prgfor         cost-eectie syste, an facite commatin betw Sta
plnngpre to      or alrea usg P~S syste.
State Medicaid agencies are so focused on day- to- day    operations that they have little
time even to research P~S technology, much less procure it. The HCFA could relieve
States from having to conduct this research by doing much of it for them. An obvious
way to start would be to request information from each potential vendor of P~S
systems or parts thereof. The HCFA should not , however , rely solely on information
from private vendors because the vendors are natura))y more concerned with their
own interests than those of the States or of HCF A.

The information HCF A provides should go beyond the general discussion of costs and
benefits contained in this report.    States wi)) need advice on system architecture
options , desirable functional requirements such as response time and network
redundancy, and cost containment strategies for requests for proposals. For example
HCF A could distribute copies of advance planning documents , requests for proposals
and contracts from States that have already procured P~S systems.

States wi)) also need advance notice of policy changes , technological breakthroughs
and lessons learned in other States. To keep States informed , HCF A could emulate
the Department of Treasury s Financial Management Servce (FMS). The FMS uses
newsletters and other publications to promote and pubJicize technological progress in
electronic benefits transfer. The HCF A should also encourage State Medicaid staff to
use its recently established electronic bulletin board to share their questions and
experiences with counterparts in other States.

Disseminating such information would provide a major opportunity for HCF A to exert
leadership in this important field at relatively little cost. We strongly urge that HCF A
take advantage of this opportunity.
 Th   HCFA sho          cla th opetina reqem for ened Fed fug
P~S syst.

The various documents that have emanated from HCFA since October 199 have
produced confusion. The HCF A should move quickly to resolve it by explaining
requirements and available levels of FF for P~S systems that manage drug claims
and other claim tyes. One possible avenue for communicating this
                                                                  poJicy would be
further revisions to the State Medicaid Manual. Another would be releasing a
memorandum similar to the one released in November 1991 which clarified the
requirements for competitive procurement.

Th HCFA
th us by
            sho prmote th deelpm of             st eltrni Asn,
                                           HCFA, State Medaid
                                                                  claim foru an
                                                                  Diecto'
Aman Natna Sta                 Ins th
                                    an Natna Co for Presti Dr
            Sta Medai agen.           Th




Pr         shoul work toeth towar            goals.

The advent of P~S technology presents a great opportunity for HCF A to encourage
uniformity in Medicaid claims. Without standard formats , providers and vendors who
operate in multiple States will have higher costs than necessary, and the e costs will be
passed along to the Medicaid program. Furthermore , standard formats would yield
uniform claims records , thus allowing the creation of a national Medicaid claims data
base. This would greatly facilitate research on utiJization of the Medicaid program as
a whole.

The HCF A' s   first task must be to ensure that standard formats exist.   For all claims
other than pharmacy claims , HCFA should work with the American National
Standards Institute (ANSI). This organization has already worked with HCFA in
developing standards for Medicare claims and is universally recognized as an industry
leader. Bringing the State Medicaid Directors ' Association (SMDA) into the format
development process would make acceptance of the formats by Medicaid agencies
more Jikely. The ANSI 837 health care cJaims standard is scheduled for release
October 1992. Therefore , HCF A must act quickly to ensure that it can be used in a
Medicaid environment. The HCFA should also work with ANSI in making this
standard efficient for P~S transactions.

Creating a standard for pharmacy claims has been an arduous process. The National
Council for Prescription Drug Programs (NCPDP) seems to have won acceptance for
its new standard , Version 3. 2. This standard includes a recommended Medicaid drug
claim format. The HCFA should work with SMDA, pharmacy and systems directors
from each State , provider groups , and systems vendors to promote its use by all
Medicaid agencies.

The HCF A could choose to promote the use of standard formats in several ways. It
could simply pubJicize them and advocate their use , devise a set of rewards for P~S
systems that used them , or even deny enhanced funding for systems that did not use
them. One option for HCF A would be to impose a deadline , perhaps six months to a
year in the future , after which State funding requests for POS systems   that did not
adhere to standard formats would not be approved. Because few States are poised to
procure POS systems in the near future , such a deadline would achieve widespread if
not total uniformity in P~S cJaims submission formats. It would also , however , give
the cJaims processing industry time to develop the needed standards and would not
prevent States that are now procuring P~S systems from moving forward.

State Medai
th
               agen th
     are comtile
                            deelp P~S claim
                    wi strd eltrni claim f01
                                                 pres assy   sho ene tht
                                                         th f01
avaible.
The existence of standard cJaims formats is meaningless unless they are widely used.
There win Jikely be ample incentive for States to ensure compatibilty of any new P~S
cJaims submission systems with standard formats. These systems win probably be
much cheaper to develop and operate than systems that require unique cJaims
formats. Even if the cost differential in a particular State proves negligible , however
we believe that uniform formats across States would offer additional advantages as
outlined above.

Requiring adherence to standard formats may delay the procurement of P~S systems
because standards for many tyes of cJaims are stil under development. Nevertheless
the costs of a delay would most likely be outweighed in the long run by the benefits of
standardization. States that are now in the process of procuring P~S systems may not
wish to wait. We urge these States at the very least to ensure that their systems can
be easily modified to accept future standard formats.
 COMMENTS ON THE DRAFT REPORT

From within the Department of Health and Human Servces, we received comments
on our draft report from the Health Care Financing Administration (HCF A) and the
Assistant Secretary for Planning and Evaluation (ASPE). We also received comments
from the other organiztions to which we direct recommendations: the State Medicaid
Directors ' Association (SMDA), the American National Standards Institute (ANSI),
and the National Council for Prescription Drug Programs (NCPDP). We reproduce
these comments and provide detailed responses to each in appendix E.

An organizations expressed support for recommendations relating to the development
and promotion of standard claim formats. In fact , NCPDP suggested even stronger
language. We have left these recommendations intact , but have modifed the
supporting text of the first to reflect recent advances in format development. We look
forward to widespread use of standard formats by Medicaid agencies.

The HCF A and ASPE disagreed with our recommendation to produce a guide to P~S
systems and distribute it to States. The HCF A believed that this woutd constitute a
 major effort to promote POSIt systems and would be premature , given the lack of
knowledge about P~S systems ' utilty in Medicaid environment. Both suggested a
delay so that the guide could incorporate additional information: HCF A referred to
the POS/pro- DUR demonstration projects and ASPE referred to the Secretary s task
force on electronic biling. We revised the recommendation to better reflect our
intent: that HCF A act as a clearinghouse to provide States with the best and most
current information on p~s technology. We can for regular distribution of
information. We note that both NCPDP and SMDA have offered to assist HCFA in
this effort. Because several States are currently contemplating the procurement of
P~S systems , we do not think it appropriate to delay until the work of the task force
and the demonstration projects are complete.

The HCFA disagreed with the recommendations to clarify enhanced Federal financial
participation (FFP) guidelines for P~S systems. The HCFA states that
communications issued since our draft report was written address these
recommendations. On one point , we agree with HCF A: it should now be clear that
enhanced FFP for P~S systems is available indefinitely. We have deleted our
recommendation that HCFA publicize this fact. We stil believe , however , that
HCFA' s operational requirements for POS systems are confusing and require
cJarification.

In addition to the organizations providing formal comments , several other
organizations interested in the subject of POS systems for Medicaid provided informal
comments , including the following:

        The American Pharmaceutical Association (APhA), American Society for
        Automation in Pharmacy, and Pharmaceutical Society of the State of New York
                                           , "





commented that New York' s Electronic Medicaid Eligibilty Verification System
(EMEVS) is unpopular with pharmacists in that State because it is not
compatible with existing pharmacy computer systems. We understand their
concern and note that HCFA' s State Medicaid Manual now requires such
compatibilty for aU   new P~S systems.

The APhA recommended that HCF A ' 'work with States to develop consensus
regarding appropriate methodology for evaluating savigs " from P~S systems.
The APhA was particularly interested in savigs resulting from pro-DURo
note their recommendation in appendix D       Exlanation of Savigs Estimates.

The National Association of Chain Drug Stores suggested that the pro- DUR
provisions of OBRA 90 should not be implemented as scheduled because the
POS/pro- DUR demonstration projects have been delayed. We did not analyze
the implications of the delay and cannot comment on this suggestion except to
note that it would require a legislative change.

The Massachusetts Department of Public Welfare disputed some of the charges
made against the Recipient Eligibilty Verification System by recipient groups.
It was beyond the scope of this report to investigate further , but we have noted
this dispute in endnote 24.

A number of private vendors commented that the draft report inaccurately
portrayed the experience (or lack thereof) that private vendors have in
Medicaid and the relative complexity of Medicaid versus private sector cJaims.
We made slight changes to the relevant sections in response.
                                 EPILOGUE

Much has happened since our draft report was wrtten in December 1991. We have
incJuded some of these recent events in the text. For example , we mention the
National Council for Prescription Drug Programs s new standard drug cJaim format
intended for use in both private-sector and Medicaid programs. We also refer to the
Health Care Financing Administration s final version of State Medicaid Manual
sections dealing with POS systems.

We are unable to provide complete and up- to- date information on State plans for
P~S systems. Doing so would require us to repeat our telephone surveys.
Nevertheless , we are aware of several important develCJpments.

Work on P~S systems continues in the States mentioned in the draft report. In
Alabama , a three-county pilot test is planned for April 1992 and fuU implementation is
planned for the summer. There is no firm implementation date in Arkansas , but the
summer of 1992 is a possibility. In Missouri , P~S eligibilty verification began in
March 1992. P~S pharmacy cJaim adjudication was scheduled to begin in April , and
pro- DUR in July.

California , which in June 1991 had definite plans for P~S eligibility verification only, is
now going much further.In February 1992 it released a request for bids on a new
MMIS. The request incJuded P~S pharmacy cJaim submission and adjudication
among the required MMIS functions. Maryland and Nebraska are expected to release
similar requests in the coming months.

It appears that the next generation of MMISs wiU support P~S technology. At a
March 1992 demonstration of MMIS capabilities in Cheyenne , Wyoming, aU major
MMIS vendors displayed P~S systems that were either operational or under
development.
                                   APPENDIX A

             TI CASE FOR PO SYSTS IN MEICAI PROGRA
Point-of-servce (POS) systems consist of a central computer or network operated by a
cJaims processor; telephone lines connecting the processor to providers; and
mainframe terminals , personal computers , or P~S terminals in providers ' offices.
The systems can perform several cJaims management functions and provide a wide
range of benefits.

Computers aHow point-of-servce communication between providers and Medicaid
agencies in several States already. However , as of October 1991 , only New York and
Massachusetts could be said to have POS systems. What distinguishes EMEVS (New
York) and REVS (Massachusetts) from systems in other States is the technology
employed and the extent to which the technology is reJied upon for proper program
administration. Only in New York and Massachusetts did a significant number of
providers both send and receive messages from the State in electronic rather than
audible form. In other States , most providers are limited to automated voice response
(A VR) systems or human operators , and only a few can obtain eligibility information
using personal computers or mainframe terminals. In some States, private companies
have instaHed P~S terminals in many providers ' offices. The terminals are used to
obtain on- Jine eJigibilty information , as they are in New York and Massachusetts.
However , unJike in New York and Massachusetts , providers using private companies
P~S terminals must pay a fee each time they obtain information. 


This appendix summarizes what P~S systems can do , and why it would be
advantageous for Medicaid programs to acquire them.                The data presented were
gathered from our survey of Medicaid agencies. The discussion is based on the survey,
our discussions with experts in the public and private sectors , and our review of
Jiterature and other documents.

P~S syte can            ree State speg           on inligile   reciie recienr wi           th-part
coverge,   an inpprprte seres.
                                            Th      can also   rede adtrtie           costs.

        Ineligible recipients

Distinguishing between eligible and ineligible recipients is a necessary but difficult
chore for all Medicaid programs. Medicaid coverage , in contrast to Medicare or
private health insurance coverage , can be highly transitory. Certain categories of


      P~S terminals , or w boxes w are small, desktop machines. They have keypads for providers to enter
information , a small screen to convey messages to providcrs , and (usually) a slot through which plastic
ID cards can be wswipe.
                          w They are programmed to dial speific telephone numbers and
communicate with the computers at the othcr end of thc lines.


                                                   A-
Medicaid recipients can (and do) lose their eJigibiJty at any time if they experience
changes in their financial , marital, or other demographic status. Providers must be
made aware of changes in eJigibiJty status , or they wiH continue to treat ineligible
patients and expect reimbursement. Medicaid programs cannot justifiably withhold
payment for ineligible recipients if they do not make a reasonable effort to inform
providers of the change. Therefore, the sooner Medicaid programs are able to inform
providers of eJigibiJty termination , the sooner they wiH be reJieved from making
payments for ineligible recipients.

The standard method for identifyng eligible recipients in aH health insurance
programs is to issue an identity (ID) card. Medicaid programs , needing to
accommodate frequent eJigibilty changes , have traditionaHy printed expiration dates
on their ID cards and mailed new cards periodicaHy to recipients who remain covered.
Most States , wishing to minimize both the cost of frequent maiJngs and the cost of
extended eligibiJty, have settled on monthly card issuance. Massachusetts and New
York, however , issue durable plastic cards. They use P~S systems to enforce eJigibility
termination on a day-specific basis. Providers in those States no longer determine
whether a patient is eligible for Medicaid on the basis of the expiration date printed
on the patient's ID card--no date is printed. Instead , providers use the P~S systems
to obtain the States ' most current eligibiJty information. The States , meanwhile
update their eJigibility data bases daiJy, aHowing them to change a recipient s status
and communicate that change to providers at any time.

Twenty- three Medicaid agencies gave us information sufficient to estimate the impact
of day-specific eligibiJty in their States. We caJculated that if those States
implemented day-specific eligibility, they would reduce annual program expenditures
by an average of $7. 7               milion (see appendix D).


       Third-part coverage

Medicaid is not supposed to pay for health care servces until third- party coverage is
exhausted. But providers do not always know that third- part liability (TPL) exists
and they bil Medicaid programs when they should bil third- part insurers. This
forces Medicaid programs to either pay providers and then try to coHect from third
parties or return claims unpaid. The former is difficult and ineffective: and the latter
angers providers.

P~S systems would give States the abilty  to notify providers of potential TPL and
require providers to submit claims to third parties before Medicaid. It is difficult to




       S. General Accunting Offce,            Medicaid: HCFA Nees Authority   to Enforce Third- Party
Requirements on States (HRD- 91-60),           April 1991.




                                                        A-2
    ...




estimate how much could be saved if POS systems provided TPL information , but it
may run into the hundreds of miJions of dolJars.

          Inappropriate services

P~S systems are widely used in the private sector to conduct prospective drug
utiliztion review (pro- DUR). Pro- DUR is intended to ensure that patients receive
the most appropriate medications for their medical conditions by identifyng
inappropriate prescriptions before drugs are dispensed.     In theory, pro- DUR saves
program dolJars in two ways: (1) it reduces expenditures on unnecessary or fraudulent
prescriptions , and (2) it reduces expenditures on other forms of medical care that are
associated with poor drug therapy. Pharmacists are ab1e to perform Jimited pro- DUR
on their own. P~S systems , however , assist them greatly by providing complete
patient histories that are kept on fie by POS system operators. Unfortunately, it is
impossible to estimate savings from P~S pro-DUR before further research is
conducted. ...

Prospective utilzation review for other tyes of mediCal care would also be possible
with P~S systems. However , distinguishing between appropriate and inappropriate
servces outside of pharmacy is more difficult. It may be some time before the
standards necessary for P~S utilzation review are developed.

          Administrative savings



P~S systems      that incorporate    eligibility verification functions allow States to use plastic
ID cards. These cards        are much cheaper , primarily because they are permanent.



          S. General Accunting Offce Medicaid , p. 6.

      For information on the problem of mismedication and on drug      utilization review in general , se
  S. Senate Speial Committee on Aging,     The Cost- Effectiveness of Orug Utilzation Review:
Annotated Bibliol!raphy , October 199. Before its repel, the Medicare Catastrophic Coverage Act of
1988 laid the groundwork for a nationwide POS system to conduct pro- OUR for the Medicare
population. For a discussion of this legislation and HCFA's response to it , se U.S. Department of
Health and Human Servce , Offce of Inspetor General,       Medicare Orul! Utilzation Review (OAl- Ol­
88- 0080), April 1989. Se also U. S. General Accunting Offce Prescription Orul!s: HCFA'
Proposed Orul! Utilzation Review System Il!nores Quality of Care Issues (PEMO- 89- 26BR), July 1989.

       PCS , Inc. has develope cost savings estimates for its Quantum Alert pro- OUR program. PCS
estimates that every dollar spent on pro- DUR saves approximately $15. Their estimates do not
include savings on medical care yielded by preventing adverse drug reactions; therefore, they are
conservative. Experts have estimated that 3 to 8 percent of hospitalizations are caused by adverse drug
reactions at a cost of $5 bilion to $13 bilion nationwide. Mismedication also increases other health

care expenditures , since it can cause or sustain health care problems. Studies have estimated that up to
7.3 percent of prescriptions have potentially serious errors (see U.S. Senate Speial   C.ommillce on
Aging, pp. 6, 12).


                                                 A-3
 Most states using paper cards issue them 12 times a year. .              Plastic cards could
 conceivably last several years and could be saved by recipients who leave the program
in case they are later reinstated.

Fort- four States now issue paper ID cards. In 27 States that provided us with cost
information , the average yearly cost for producing and mailng paper cards is $1.53 per
eligible per year. In the 4 States that use plastic cards and provided us with cost
information , the average cost is only $.50 per eligible per year. By switching to plastic
the States with paper cards could save from $6 00 to $2. 2 miJion a year on card
production and mailng, with an average of $570               00 (appendix      D).

P~S systems that perform eJigibilty verification , cJaims submission , and/or claims
adjudication would reduce errant and invaJid claims. Providers would receive
feedback from the systems and then either correct or cancel cJaims                   that are rejected.
As a result , fewer Medicaid staff would be needed to handle errant claims and
respond to provider inquiries.

The tyes of errors P~S systems can detect depend on the functions the systems
perform. EJigibility verification systems can eJiminate claims submitted for ineJigible
recipients. Claims submission systems can detect such errors as wrong dates , invalid
codes , and tyographical errors and can reduce data entry errors by State staff. Real-
time claims adjudication systems can detect higher- level problems such as cJaim
dupJication or servce threshold restrictions.

P~S systems that performed claims submission could reduce the volume of paper
cJaims , which would reduce processing costs. States that currently receive a high
proportion of claims via modem , disk , or tape have lower processing costs per
cJaim. U Paper claims are more expensive because the State must pay both for data
entry and for correcting the errors that are created in the process.

P~S syste can imve               prvi relatins.
Many observers have noted the difficulties Medicaid recipients have in accessing
servces , particularly from primary care physicians. Part of the problem may be that
providers are frustrated by the paperwork necessary to receive Medicaid
reimbursement. P~S systems could relieve some of the administrative burdens
associated with treating Medicaid recipients. Providers themselves favor P~S systems
according to informal responses we received from provider associations.




        One exception is Pennsylvania , which issues paper cards every two weeks.

        The correlation between cost per claim and percentage of total claims submitted electronically
was -    56 (for 31 States reporting suffcient data).


                                                    A-4
Because POS systems can , through a variety of functions ,reduce cJaims denials
providers can be more assured of payment. P~S eligibility verification guarantees
providers that cJaims wil not be denied because of recipient ineJigibiJty and notifies
providers of third- part coverage. P~S cJaims submission a))ows providers to check
and edit cJaims for simple errors.               P~S cJaims      adjudication a))ows providers to find out
whether final payment wi)) be made and to adjust their accounts receivable
accordingly. In addition , P~S utiJzation review messages inform providers of
recipient-specific servce restrictions and potential therapeutic or administrative
problems.

Medicaid providers have often complained about payment delays. P~S systems                               could
reduce the time between servce deJivery and payment by eJiminating delays due to
shipping, handJing, and data entry. Currently, electronic cJaims are paid on average                            a
week faster than paper cJaims. ' Given    that most electronic cJaims are now submitted
on tape or diskette and that on- Jine cJaims would get to the State even quicker , the
difference between on- Jine and paper cJaims should be even more pronounced. P~S
cJaims adjudication would speed things up even further by replacing daily or weekly
cJaims processing cycJes with instant , on- Jine processing.

It is important to note that cJaims adjudication and cJaims payment are two separate
processes. Even if States used P~S systems to adjudicate claims the moment servces
were delivered , they could stil delay payment for those servces by whatever length of
time they desired. This flexibiJty could lead to a compromise between providers , who
seek the quickest possible payments , and State treasurers , who may seek the longest
possible delays.





bett     pr
P~S syste can accelte th flw of informtin frm JHvirs to Slate,
                         adtrtin an planng.
                                                                                                  alwig

P~S cJaims submission systems would make information available to States much
more quickly than traditional cJaims submission systems. New York now has a
problem verifyng that patients actually received servces that the State was biled for.
It can take so long for the cJaims             to be processed that       recipients may forget whether
the servces were delivered or not.  If New York' s P~S eligibility verification system
performed claims submission as well , it could produce utilization reports at the end of
the day. This would a))ow staff to verify the servces on the fo))owing day.
respondent from South Carolina stated that on- line claims submission " could reduce
the information float. It now takes a long time , about six months , to recognize the


    In 47 States responding to our survey. the mean payment time for electronic claims is 10 days.
compared to 17 days for paper claims. The difference in payment times ranged from 0 to 23 days.
States often reported a range, 
  . 5 to 15 days. We averaged the low and high estimate to asign each
State a single payment time for each
does not accpt electronic claims.
                                            ty
                                           of claim. Nevada was excluded from this analysis beus it
                                          Maine was excluded     beuse it could   not report separate average
procsing times          for paper versus electronic claims. lIinois wasexcluded beuse at the time of our
survey. owing to fiscal problems , it required 120     days to   procs all typs of cIaims--an obvious outlier.

                                                        A - 5

need for a policy change and implement it. Three months of that delay could be
eliminated if the cJaims were submitted and adjudicated faster.

P~S syste
ben trer

               co ad Medaid to th            lit of   pr         avaible   th eltr
Paper-based benefit programs may soon be extinct. The same technology used for
P~S medical cJaims management can be used to replace paper checks and coupons
with electronic transfers. . States issuing plastic cards for recipients to use in banks
and supermarkets could use those cards for Medicaid as well.




     Se U. S. Department of the Treasury. Financial Managcmcnt Service.    From Papcr to Plastic: The
Electronic Benefit Transfer Revolution. 199.


                                                A-6
                             APPENDIX
                                  MEOOOLOY
The data presented in this report were gathered through the foJIowing methods (dates
for each method are given in parentheses; aJI occurred in 1991):

      Telephone intervews with Medicaid cJaims management staff in 50 States.
      Intervewees were identified during our conversations with HCF A regional
      office staff (see below) or by referral from other State Medicaid staff. We
      intervewed staff from the District of Columbia (referred to in the report as a
      State) and aJI States except West Virginia. (May- June)
      A mail survey to which 45 States responded. We sent a letter and wrtten
      questionnaire to the Medicaid Director or the MMIS Director in each State.
      We received at least partial responses from every State except Alaska , Arzona
      Arkansas , Delaware , and Ohio. The response we received from Maine came
      too late to be included in our analysis. (May- July)
      Telephone intervews with HCF A systems staff in each of the 10 regional
      offices. The names of the appropriate staff were given to us by HCFA'
      Medicaid Bureau. (April)

      Informal conversations with staff from HCF A' s Medicaid Bureau. (February-

      September)
      Telephone intervews with representatives from 14 private companies involved
      in Medicaid and private-sector drug claims processing. The companies induded
      Medicaid fiscal agents (Consultec , EDS Federal , The Computer Company,
      Unisys), drug processors (Argus , PAID Prescriptions , PCS , Perform Cost
      Management Servces), telecommunications speciaJists known as " switches
      (Envoy, General Computer Corporation , National Data Corporation), and
      pharmacy computer systems manufacturers (3PM , Condor , QS!). (July)
      Telephone intervews with seven trade or professional organizations
      representing pharmacists and other providers. The organizations included the
      American Hospital Association , American Medical Association , American
      Pharmaceutical Association , American Society for Automation in Pharmacy,
      American Society of Consultant Pharmacists , National Association of Chain
      Drug Stores , and National Association of Retail Druggists. (March)
      A review of advance planning documents and other materials prepared by
      eight States (Alabama , Arkansas , Ilinois , Massachusetts , Missouri , New Jersey,
      New York , and Oregon) concerning point-of-servce systems. (May- September)
      A review of data coJIected in surveys of State Medicaid programs conducted by
      HCFA and the American Public Welfare Association (APWA). The HCFA
      survey addressed drug utilization review , and the APW A survey addressed
      recent MMIS improvements. Both surveys were conducted in the spring and
      summer of 1991. (July)
      A review of professional and government literature. (February- September)
Between wrting our draft report in December 1991 and preparing this final version
we conducted additional discussions with States , industry organizations , and private
vendors. Their input is reflected in the final report.
                                       APPENDIX
                  EXG AN PROPOED MEICAI PO SYSTS
   State       System              Equipment and               Estimated       Estimated      Start    Status
               Functions           Servce Neeed                Cost            Savings        Date     (as of    9191)

  Arkans       Eligibility         Platic card                 $8 milion       $10 milion              APD
               verification        production and              over 4 years    gros                    approved;
               (day-speific)       distribution , pas          to develop      savings over            bids recived
               and claims          terminals, initial and      and operate     4 years                 for card
               submision for       ongoing                     (includes                               production
               all provder         programming of              work by new                             pas terminal
               ty;    claims
               adjudication for
                                   terminals                   contractor                              supply,
                                                               fil agent                               maintenance
               pharmacists                                     and State)                              programming
  Ilinois      Eligibilty          Telecmmunications           $20 00 to       $7 milion      119      Vendor
               verification         swtch" to link             develop;        gros           (pilot   selected;
               (month­             provders and state­         $1.65 millon    savings over   study)   contract
               spefic), claims     operated MMIS               over 5 years    fie years               award
               submission and                                  to operate                              pending
               adjudication for                                                                        HCFA
               pharmacists;                                                                            approvl
               pro-DUR
               anticipated

  Mass­        Eligibility         Plastic card                $19 milion      $30.           1189     System
  chusetts     verification        production                 over 3.5         milion gros             operational;
               (day-specific)      telecommunications         years to         savings over            expnsion
               for all provder     network , pas              develop and        5 years               contemplated
               tys                 terminals                  operate
  Missuri      Eligibility         Programming of             $507 00     to   $2.            819      APD
               verification        state-operated             develop;         milion gros             approved;
               (day-specific),     MMIS , maintenance         53, 00 per       savings                 projcct work
               for all provder     of pro- DUR data           year to          annually                to start 10191
               tys;    claims      ba (provders will          operate (not     from day-
               submision           pay for equipment          including        specific
               adjudication        and line charges)          conversion to    eligibility
               and pro- DUR                                   day-specific     alone
               for pharmacists                                eligibility)

  New          Eligibility         System design              S38 milion       S18 million    1118     System
  York         verification       plastic card                over first 7     gros                    operational;
               (day-specific)     production                  yers to          savings                 contractor
               and utiliztion     telecmmunications           develop and      annually;               secured
               revew and          network , pas               operate; S30     S200 million            through
               control for all    terminals , evolution       milion over      annual gros             199;
               provder tys;       resu rces                   next 6 years     savings                 additional
               pot and clear                                  to operate       poiblc                  functions
               for pharmacy                                                    from servce             contemplated
               and laboratory                                                  retriction
               orders                                                          enforcement

SOURCE: Adance Planning Douments and additional information supplied to OIG by each State in Seplemt.r
                                                                                                       1991.




                                                            C -

                                         APPENDIX D

                              EXLAATION OF SAVIGS                             ESTE
Da-sp eliJ

Our model of savigs from day-specific eJigibiJity (DSE) is nearly identical to that used
by Massachusetts in its first-year evaluation of REVS. Although this model is
convenient because it reJies on readily available program statistics and is logicaJIy
sound , it does have some limitations. These Jimitations are described at the end
this section.

For each State , the total annual program savings resulting from DSE equals the total
number of cases closed because of DSE times the average savings per dosing. The
average savings per cJosing equals the average number of days between the cJosing
and the end of the month in which the cJosing occurs times the average expenditure
per eJigible per day. In any given year, the average expenditure per eJigible per day
equals that year s total Medicaid spending that is subject to DSE divided by the total
number of eJigibiJty days that year for the entire Medicaid recipient population. The
number of eJigibiJity days for the population equals the number of fuJI- year eJigibJes
times 365 ,    plus the total number of months of eJigibility for partial-year eligibles times
30.42      (365 + 12 = 30.42). This set of equations
                                                     yields the formula
                                                               cdx
                                                   s =

                                                           365f+30.42m

where S = Total annual savings from DSE
       = Total number of dosings from DSE
        = Average days saved per dosing
       = Total expenditures subject to DSE
                 = Number of fulJ-year eligibles

                  = Number of months of eJigibilty                 for partial-year        eligibles.


We obtained the values            off   and         for each State for Federal FY 199                    from HCF A'
Division of Medicaid Statistics. The Division also provided each State s                                 total
expenditures by tye of servce ,                                 (see below). We
                                              which we used to calculate

obtained the value of    from our mail survey of States. They provided , for either the
Federal or the State fiscal year most recently concJuded , the " number of persons
eJigible for Medicaid benefits at some point during this year who became ineJigible
either permanently or temporarily, later this year.                   a fixed value of 15
                                                                           We assigned 


days , assuming a random distribution of case closings throughout each month.

To calculate 
           we subtracted from each State s total expenditures its expenditures on
the foJIowing servces: inpatient hospital (general and mental health), intermediate
care facility (mentalJy retarded and aJI others), skilJed nursing facility, and HMO



                                                            D -

~~~~~~~~~~~~~~~~~
premiums. Day-specific eJigibilty is not likely to affect expnditures on these servces
either because they are paid for in advance of case          (e.
                                                          cJosing HMO premiums) or
because patients needing these servces are not Jikely to lose Medicaid eJigibilty   (e.
inpatient hospital).

Twenty-three States were able to supply values for       c:   AI CA, cr , FL GA, ID, KY

also provided a value of 
but was not incJuded in this caJculation because it already
uses DSE.) We caJculated values of S that fanged from under $100 00 (WY) to over
$30 miJion (CA, PA, and TX). The sum of           equaled $177
                                                  aU                 677 , yielding an
arithmetic mean of $7 716 029. The median State was Mississippi , with S = $4.
miJion.
There are two primary limitations to the model developed by Massachusetts and used
here. The first is that it assumes no effect of eJigibiJity termination on medical servce
utilization patterns. It is possible that recipients who were aware of impending case
cJosings would "load up " on servces such as physician visits and prescription refiJs
before their eJigibiJty expired. Massachusetts might be able to obtain better estimates
of the effect of DSE if it were able to track the utilzation patterns of recipients before
and after they left the program. The second Jimitation is that the model does not
account for differences in servce utilzation patterns between different categories of
recipients. Elderly and disabled recipients are Jikely to have the highest medical biJs
but they are least Jikely to lose Medicaid eligibiJity. Therefore , though we believe that
this model can produce reasonable estimates of potential program savings from DSE
we would not recommend that States rely entirely on it when comparing the costs and
benefits of P~S systems. The American Pharmaceutical Association has
recommended that " HCF A should work with States to develop consensus regarding
appropriate methodology for evaluating savings. " Certainly, consensus in this area
would be helpful.

Plati ID         car
Our maiJ survey asked States to report their annual expenditures for producing and
mailing eligibility cards. To compute potential savings from conversion to plastic ID
cards , we first divided the cost for producing and mailing cards in States already using
plastic cards (DC , MD , MA NY) by the total number of unduplicated eligibles in
those States. (The number of unduplicated eJigibles in each State for Federal FY
1990 was provided by HCFA' s Division of Medicaid Statistics. ) We averaged the
results from the four States and obtained a mean cost per eligible of $0.4978. We
then multipJied , for each State using paper ID cards , the total number of eligibles by
$0.4978 to estimate each State s cost if it were to use plastic cards. We subtracted this
cost from the current cost to obtain a savings estimate  for each State. For example
Alabama spent $60 00 for paper       cards in one year for 431 240 eligibles. At $.4978
per eligible , it would have spent only $215 620. Savings for Alabama , therefore , were
estimated to be $384         380.



                                             D-2
These savings estimates represent ongoing, long-term savings on card production and
mailng only. We did not consider the substantial start-up costs involved in procuring
equipment to manufacture plastic cards and providing them to aU current recipients.
Nor do our estimates    incJude the costs of the     system required by plastic cards.
                                                        POS

Also , our estimate assumes that the rate of card loss is constant across aU States
regardless of the   tye of card      used.




                                                   D - 3

                         APPENDIX 

             ETATT.F.O COMM ON TI DRA RERT AN
                    OIG REPONSE TO TI COMMNT

In this appendix , we present in fulJ the comments on the draft report offered by the
Health Care Financing Administration (HCF A), the Assistant Secretary for Planning
and Evaluation (ASPE), the State Medicaid Directors ' Association (SMDA), the
American National Standards Institute (ANSI), and the National Council for
Prescription Drug Programs. We also present our response to each set of comments.




                                         E -

. "\lVIC,,,
                                                                                               Health Care
              DEPARTMENT OF HEALTH & HUMAN sEi\6iiVED                                          Financing Administration



"."4Ia
                         1992                                                                  Memora
   Date
              Gail R. WiJensky, Ph. D.
   From       Administrator

   Subject
              OIG Draft Report - " Point-of- Servce Claims Management Systems                  for Medicaid,"
              (OEI- Ol- 91- 00820)

              Inspector General
              Offce of the Secretary

                   We have reviewed the subject draft report which discusses the potential of point-
              of-servce (POS) claims management systems for State Medicaid programs.
              general , we found this report to be quite useful , in that it has added to our
              understanding of POS claims management systems in the Medicaid envionment.

                  The Offce of Inspector General (OIG) found that , although pas systems have
              great potential for improving the administration of Medicaid programs across the
              country, several barrersexist that impede broader adoption of these systems. The
              findings suggest that P~S is a concept whose time is not yet here , at least for
              Medicaid.

                  To address their findings , OIG recommends that HCFA should: (1) prepare a
              guide to P~S technology and distribute it to States; (2) make each State aware of
              possible exceptions to deadlines for Federal funding set by the Omnbus Budget
              Reconciliation Act of 1990 (OBRA 90); (3) clarify the operational requirements for
              enhanced Federal funding of pas systems; and (4) promote the development of
              standard electronic claims formats and their use by State Medicaid agencies. OIG
              also recommends that State agencies develop pas claims processing systems that are
              compatible with available standard electronic claims                  formats.


                   We agree with aU these recommendations in priciple and have already begun to
              implement several of them.   However, we believe it would be premature to commit
              ourselves to preparig a guide to pas technology for Medicaid programs. OIG'
              fidings are not sufciently conclusive to justif a major HCFA effort to promote P~S
              at thi time. Our specific comments on the report s recommendations are attached
              for your consideration.


                  Thank you for the opportunity to review and comment on this draft report.
              Please advise us whether you are in agreement with our position 00' the r port
              recommendations at your earliest convenience.

              Attachment



                                                              E-2
                        Comments of the Health Care Financing Administration

                on the OIG Draft Report: " Point-of. Servce Claims Management Systems

                                        for Medicaid, "   (OEI- Ol- 91- 00820)



Recommendation

That HCF A should prepare a guide to Point- Of- Servce (POS)               technology and distribute it to
States. The guide should           explain the costs and benefits of P~S technology, alternative
methods of using         P~S    systems , and strategies for procuring cost-effective systems.

HCFA Response

We do not agree with this recommendation at this time. The report states , and we agree
that our current knowledge of the utility of P~S in Medicaid is limited. Presently, the
benefits of P~S systems for Medicaid are only specuJative. The findings of this report are not
conclusive enough to justif,     at this time , a major effort to        promote POS.        Also   as the report
itself indicates , States presently have few financial and staff resources              to devote to these
efforts.

We suggest that development of a P~S guide be deferred until the current Electronic Claims
Management (ECM) outpatient drug claim demonstrations have been completed and assessed.
These studies are congressionally mandated under Section 4401(c)(1) of OBRA 90 , and
require the Secretary to report to Congress on the completed demonstrations by January
1994. The study is expected to provide useful infonnation which will define the pros and cons
of P~S     systems for        In the meantime , we wi keep P~S systems on the agendas of
                          Medicaid.

any HCF A-sponsored ,           Medicaid-oriented systems conferences and work5hops.

Recommendation 2


That HCFA should make each State aware , through the State Medicaid Manual or other
appropriate vehicles , that enhanced funding will be available under pre-existing authority
beyond the deadline set by OBRA 90.

Recommendation 3


That HCF A should clarify the operational requirements for enhanced Federal                     funding of POS
systems.

HCFA Response (to Recommendations 2 & 3)

OIG has expressed concern that HCFA funding policy regarding POS and EC\1 systems is
confsing. These concerns , however , are based upon a review of draft materials. HCF A has
clarfied and resolved these problems. Since our actions were taken on our own irutiative and
not based on the OIG report, we technically disagree with both these recommendations.




                                                          E - 3

" Page 2



 Our fial policy is contaied in two documents. One is the Medicad      Management
 Inormation System (MMIS) section of the State Medicad Manual.       Th issuance sets funding
 policy for ECM without specifc reference to the deadlies set by OBRA 90.

 In addition, we also issued an all State Medicaid Directors letter on November 7, 1991. Ths
 letter claried issues raised by the OBRA 90 provisions related to procurement of P~S ECM
 systems, including competition.
 Recommendation 4


 That HCFA should promote the development of standard electronic     clai    formats and their
 use by State Medicaid agencies. HCFA, the State Medicaid Directors ' Association , the
 American National Standards Institute , and the National Council for Prescription Drug
 Programs should work together toward these goals.

 Recommendation 5


That State Medicaid Agencies that develop p~s claims processing systems should ensure that
they are compatible with standard electronic claims formats as the formats become avaiable.


 HCF A Response (Recommenqations 4 & 


We agree with these recommendations. We have already taken several steps in the diection
suggested. As this report states, some of the most controversial formattig issues seem to be
near resolution. We wish to note HCFA is fully commtted to the American National
Standards Institute (ANSI) standard setting process. In fact, we publicly expressed our
support for ANSI at the Secretary s Administrative Cost Forum in November 1991.

HCFA will paricipate in workgroups dealing with P~S , and wi endeavor to see Medicaid
agency interests are also represented. We point out that a State Medicaid Director already is
a member of the Steerig Commttee for the Workgroup on Electronic Data Interchange.
Ths Commttee has been charged by the Secretary with promoting the use of electronic

claims submission in the health care   industry.


Further , P~S formatting issues wi be put on the agenda of our Systems Techncal Advisory
Group. When States submit requests for funding P~S systems , formatting issues wi be
addressed as Advance Planning Documents (APDs) are reviewed. APDs are the basis of
Medicad funding decisions.




                                               E - 4

                      OIG REPONSE TO HCFA COMMNT


We agree that it is probably premature for HCFA to conduct a " major effort to
promote POS. " The primary intent of our recommendation to HCFA to produce and
distribute a guide to States was for HCF A to take the lead in collecting and
disseminating information. We never meant to imply that HCFA should
unconditionaJIy promote P~S systems at this time. The HCFA correctly notes that
more information wiJI be avaiJable when the pro- DUR P~S demonstration projects
have been conducted and evaluated. We have therefore modified our
recommendation to better reflect HCFA' s role as an information cJearinghouse. We
beJieve it is now consistent with that outJined by the Assistant Secretary for Planning
and Evaluation in his comments (see below).

We stress , however , that HCFA should take immediate and continuing steps to
distribute information on P~S systems. Keeping P~S on the agenda of conferences
and workshops is not sufficient because , in an era of diminishing Federal and State
travel funds , there is no guarantee that such meetings wiJI be held or widely attended.
In the text supporting our recommendation we suggest less expensive methods of
sharing knowledge.

We agree that HCFA' s policies are clear regarding ongoing availabilty of enhanced
Federal Financial Participation (FFP) and assume that State officials are aware of the
policies. We have deleted the draft recommendation on that subject. We disagree
that the State Medicaid Manual explains the operational requirements with sufficient
clarity. In particular , we wonder what rules would apply to P~S systems that
performed all functions (including adjudication) for pharmacy cJaims but more limited
functions for other claims. We urge HCF A to make these rules explicit.

The HCFA comments that "when States submit requests for funding P~S systems
formatting issues will be addressed. . .. " Given the unanimous support expressed by
readers of our draft report for standardizing claim formats ,   we hope that HCFA will
devise review criteria that provide strong incentives for adhering to these standards.




                                          E - 5

       DEPARTMENT OF HEALTH &. HUM	              CELVEL_- -   . Offce of the S     etarv


                                                                  15bjnatorL D.   C--02 g(.J



TO:	          Richard P. Kusserow
              Inspector General

FROM:	        Assistant Secretary for
              Planning and Evaluation

SUBJECT:	     OIG Draft Report: "Point-of-Service Claims Management
              systems for Medicaid,      OEI-Ol-91-00820

Thank you for providing me with an opportunity to review your

draft report on P~S claims management systems for Medicaid

providers. I found the report informative with regard to both

the potential benefits of P~S claims management systems for

Medicaid and the problems perceived by states considering such

systems. Clearly, the financial and staff resources states would
have to commit represent the principal impediment to their
adopting the technology. In addition, states have raised
significant concerns that some of xhe advantages P~S systems
typically offer may not materialize in the Medicaid context for
both programmatic and practical reasons.
Recommendations
In light of the very limited Medicaid experience with P~S systems
and their still speculative value to states , I believe that the
reco mendation that HCFA prepare a guide to P~S technology of the
scope you describe and distribute it to the states is premature.
While movement toward P~S systems is consistent with Secretary
Sullivan' s initiative to reduce administrative costs, in part by
promoting increased use of electronic systems, development of a
HCFA guide should be deferred, perhaps until the contributions of
the task force on this subj ect , whose work is still underway, can
be incorporated. In   the meantime , I believe that HCFA should, to
the extent possible , facilitate the exchange of information among
states with respect to their experience in adopting P~S systems.
Regarding your recommendation that HCFA clarify the operational

requirements for enhanced FFP, I believe that HCFA' s final State

Medicaid Manual instructions , issued since your draft report was

wri tten, do just that. The instructions also treat efforts

related to P~S system implementation as MMIS improvements, for
which enhanced FFP is available on an on- going basis under the

law: the effect of construing these activities as MMIS improve­

ments is to render the OBRA 90 two- year limit on enhanced FFP

(which applies only to P~S for drug claims processing)

immaterial. Relatedly, under the final instructions , a broader
set of P~S systems will meet the requirements for enhanced FFP.




                                        E - 6

Page 2 - Richard P. Kusserow


Finally, I concur with the recommendation that HCFA promote the
development of standard electronic claims formats and their use
by state Medicaid agencies. I also concur with the reco
mendation that state Medicaid agencies developing P~S claims
processing systems should ensure that they are compatible with
standard electronic claims formats, as the formats become
available.
                          L- 1

                        Martin H.   Gerry




                                E - 7

                      OIG REPONSE TO ASPE          COMM

We agree that HCFA' s preparation of a guide to P~S systems is not appropriate at
this time and that " HCFA should , to the extent possible , faciltate the exchange of
information among states. . .. " In response , we have modified our recommendation
and caJI for HCF A to coJIect information on P~S systems and regularly distribute it to
States.




                                        E - 8

                    STATE MEUJc.AJO DIRECTORS' ASSOCIATION





March 24, 1992



Mr. Richard P. Kusserow , Inspector General
Department of Health & Human Services
Washington, D. C. 20201


Dear Inspector General Kusserow:

I have reviewed your draft report, " Point of Service Claims Management Systems for Medicaid.
I believe your report accurately"  reflects both the benefits ,and drawbacks of Point of Service
(POS) technology, from the state perspeve. Your roport also reflectS the confusion surrounding
the issIJc of federal payments for P~S system devclopment and operation. J do believe , however
               huuld place more emphasis on OBRA 90 provisions , which has provcn to be a
that the repurt 


source of much confusion regarding when enhanced FFP is available.

In general, I believe state Medicaid agencies wil support the recommendation!; of the draft
report. State agendes , despite cunent fii;cal and other resource limitations, remain very interested
in improving the administrative                        efficiencies of their programs in the context of improving
provider paicipation  and client accss. The State Medicaid Directors ' Association is wiling to
work with the Health Cae Financing Administration to disseminate information on
                                                                                  cot effective
technologies and to resolve outstanding issues of state and federal concern.

Sincerely,




Ray Hanley, Chairman
State Medicaid Director ' Association and
Director, Arkan    Office of Medical Services




                                An 4Ifiliare of rbi'         Americ-.U Public Welf. As tHjon

                    810 First Street ,   N,   , Suite SOU,         hington , D.c. 20002. 4205 (202)   hR2-0100


                                                                    E-9
                     OIG REPONSE TO SMDA COMMNT


We appreciate the SMDA' s support for our findings and hope that the States do
indeed support our recommendations. We feel that our report adequately addresses
the confusion caused by OBRA 90 (p. 8), especially in Jight of HCF A' s more recent
actions and their comments on our report.




                                       E - 10

ABC X12- ELECTRONIC DATA INTERCHANGE (ED                                        X12N Insurance Subcommittee
                                                                                Le Barrett. Chairman
    Accredited Standards Committee                                                     The Travelers
                                                                                       One Tower Square - 5 FP
    operating under the procedures of the                                              Hartford, CT 06183
    American National Standards Institute                                       TEL: 203 277-          FAX: 203 277. 2107




       Fe
                                                               Oi.ump-nt Nn,


                     16, 1992


        Rich
       Inr
       Kr.
           Inr
                         P.

       Det
       Office of

       Was,            of Heth an

                         DC 20201
                                            pnm"n   Sece
       De Kr. RUse:
       I hae reew th dr rert entitled "Point of sece Clai
       Maemt           sy
                        for Mecad" an hae          ts. on Pae 11 of
       th rert th's on seon whch discse th fac tht "state an
                                                               th



       private paer do not us unfoI1 elecc clai fomat" . I wod
                                         th
       ag tht ths is a major prolem sin ar over 400 elecnic
       clai fomats in us in th U.
       Th Workg on Elecc Data Intee, whch wa intiate
       th IDs SUva But in NoBD 1991, an is
       Brhy of Treler an Be
       elecc        adiD      th issu of
                                                    Trstzedooby Joseh
                                           of Blue Crss Blue Sheld
                                                       billiD,
                       eligiility an paymt inlud elecnic retta
                ation, is
                clai,
       adce (ER) an elecnic fu trfereEF). Th rert sc€'l.                                 is

       for sussion in Juy 1992.
        re
       In            to th

                          th tLroT' Intitu(ANI)
                               ba be
                                       ca Nationa

       tron hae be aproed as drt st, as of ths lette:
                                               roess ma
                                    tte effort,                       signficat p
                    tte
       In

       sin              in Feb. 1991. Th
                       ;ng                                               follCI heth

                    835 Heth
                    834
                            Pat ER
                        Enllmt
      Th aM          tien heth ca trons hae be 8Wroed to se
      th Xl 
                 hip for balot:
                    837 Heth Clai               Anticipate fonn          apro     is 10/92

      Th foll                heth ca        trons ar un deelopt:
                            Anticipate apro 2/93
                    Elgiility -
                    Cazed Patient Rerd -         st            Work to          6/92




                                                     E - 11

ABC X12- ELECTRONIC DATA INTERCHANGE (EDI)                                           X12N Insurance Subcommittee
                                                                                     Le Barrett. Chairman
    Accreditd Standards Committee                                                        The Travelers
                                                                                         One Tower Square. 5 FP
    oprating under the proedurs of the                                                    Hartford, CT 06183
    American National Standards Instiut                                             TE: 203 277.   7647 FAX: 203 277. 2107


             tht ap al tr
                                                                   Document No.



       St
       Plea JXte
       fiD ap.
              '1 (re ho,
                     for
                  ver trto
                                      Use
                                             of
                                       sT-mrb1'
                                                   for a peod of 2-3
                                                                     unye
                                                                        X1 ar as
                                                                is fuy ap pror  to ANI:
                                                                               al paes
                                  stPat
                                 '1
                                                                            by
       an inxprate into                                            as a   mr.

       As yo     ca se, mu work                                            em heth                     with

       tronpr, th re tb :ri
                                              ha                   1; R
            th pa ye. ba to
       th pro an ba work&:closey
       X1 aver
                                                   be

                                                         al     be -- a mo acve pacipat
                        to met
                                                                mo
                                                                :m
                                                                      th of
                                                                         835 Heth
                                                                            th t-Aw toi "Ti es.
       'l X1

       coti
           an
       incaterets
             th         ooto
                           st
                           an wi
                                st pr.
                    intetiem to migrte
             to ): acvely inlved in th
                                                        qu    base , ba    be

                                                                   to do so.
                                                                          AN X1
                                                                                  B: ba
                                                                                         &:'s
                                                                                               an to

       :I
       St9U,
       Claisy         th
                      re en
                        I: fee tht

            stly en Mecad/
                                   in.      th
                                    is we wrtt an th ne for pe
                                  ent, th       heth C&1'
                                st
                            is



                              inte
               ar dselcpil at a raid pa with th AN
       I: wod
       coti
       st      st      pr                 an al
                                        to dscp th
                                                        paes

                 ne tu. st
          siar
       to a
              to work with th AmI
                             wo to                        an moe
                                            platfozm. AN X1 is                     with oth
       beeve
       wi oc      ths ooelqmt betw
                      in th        th
                    orzation su as H:P to as we migrte
                                           orzation
                                                                                                   ANI:. We



       I:f yo wod li an adtion inomatiem em AN X1, th
       an oth ite metion abe in th let plea ca me at
                                                                                            pr,
       203-277-7647. Th yo for prodi me th oprtty to reew
       rert   in     ad
                      an to prode my


       Siny,

      le Bat

      Ch, ANI: X1                In           S!1hr; tte




                                                         E - 12

                     OIG REPONSE TO ANSI COMMNT


We have incorporated the additional information provided by ANSI's comments into
our report. As noted in our recommendations , we agree that HCF A should continue
to work with ANSI in developing standard claim formats.




                                      E - 13

   _.._.._-- -   ....._.


              .I
                                National Council for Prescription Drug Programs




  February 13 , 1992




  Mr. Richard P. Kusserow
 Inspector General
 Department of Health & Human Services
 \Vashington , DC 20201

 RE: Draft OIG Report (OEI- 01- 91-          00820)       POINT- OF- SERVICE CLAMS
                                                      MANAGEMENT SYSTEMS FOR MEDICAID
 Dear Mr. Kuserow:

 The National Council of Pre ription Drug Programs (NCPDP) is a non-
 over seven hundred members representing prescription drug providers profit organization of
 organizations , government agencies and                                  , insurers , service
                                           others interested in prescription drug program
 administration stadardization.
                                 NCPDP is gratified by your offce s recognition of our role in
 the drug delivery industr and is     plea
                                       to provide official comment on the above cited report.
 NCPDP applauds the Offce of the Inspetor Genera'
                                                              s continued interest in the delivery of high
 quality and cost effcient presription drug therapy to
 within government programs. Past OIG report
                                                              the America public and more speificaly
 Review (OAI-D1- 88-Q80),
                                                         such as those on
                                                                                 Medicare Drug Utilization
                            The Clinica Role of the Community Pharmacist
 and the draft-cmment procss you utiiz                                                   (OEI- Ol- 89- 89160)
                                               in their production , have brought forward great insight
 into many drug delivery issues. The insights your
                                                         offce has presnted have
 peple charged with oversight and management of both private and benefited numerous
 programs. Furter , your insights are in                                               public drug delivery
activities within the drug delivery industr
                                               many    caes      a clea predecessor to and influence on
                                                     which result in direct benefit to drug therapy
recipients throughout our nation. This report on
for Medicad continues your offce trdition of Point-of- Service Claims Management Systems
                                                      thorough and thoughtful resch into importt
subjects and the clea presntation of remmended
wish to commend the work of your entie offce andactions.                 At the outst of our comments , we
                                                              the staff charged with production of this
report whom we have found to be most reptive
presentation of a complete and accurate report.              , accsible , and sincerely interested in




            4201 Nort 24th Street. Suite 365. Phoenix, A2 85016. (602) 957-
                                                                              9105. FAX (602) 955- 0749

                                                       E - 14
                                                              , "




Mr. Richard    P. KU'iscrow                                                    t't:hruar)' 12 , 1991
NCPOP CClmmt:nL'i                 Draft Report OEI-01. 91-O820                             aJ:t: # 2


General Comments:

Since 1977 ,   NCPDP has provided a forum where the diverse interests of the drug delivery
industry can find a common ground where voluntary agreement on standards can improve
effciencies for everyone involved. Our success to date has been unprecedented in health benefit
delivery and we appreciate the recgnition of this provided within your report. As some of the
statements in the report are necsaly dated , the primary focus of our general comments will
be to update your offce on our stadardization   activities.

As your report section on Recommendations (page 18) notes creating a standard for pharmacy
claims has been an arduous procss. . NCPDP' s role within the drug delivery industry has never
been an easy one , nor has NCPDP been immune from controversies which are often associated
with insightful leadership within diverse groups. We are happy to report however , that we
continue to be thoroughly gratified by the unyielding support , encouragement and dedication of
the vast majority of our membership and colleague trde organizations.


Despite the periodic controversies which ca surround our mission , and recent significant
challenges we have face , NCPDP continues to be clearly recognized as the preeminent
authority on the creation of stadards for the prescription drug program delivery industry.
Attesting to this Jact are; 1) the vast ary of organizations and companies which have already
provided written statements      of   support and implementation      planning for our new
Telecommunications Stadard Version 3. , 2) the ninety seven percent affrmative vote to make
V3. 2 an offcial stadard that ocurred at our Februar 11th annual meeting, and
                                                                                , 3) the
continued investment in our   volunta stadard setting processes being made by companies
throughout the drug delivery industry.

Although as of the writing    of your report NCPDP was engrosse in a diffcult process of
consensus building, we feel that our work at that point was somewhat more positive than your
report indicated. In the report our effort were tenned " promising
                                                                   , but the report also stated:
          If NCPDP is unable to produce an acceptable Medicaid-compatible format in
       a reaonable period of time HCFA may nee to create its own Medicaid
       stadard.
As previously stated , our recnt effort to overcome industry criticisms of the Version 3.
replacement for our obsolete initial telecmmunications stadard have been succssful. The
success of this effort was made possible by a thorough industry wide examination of a draft for
comment and increa involvement of a number of interested organizations in the NCPDP work
group procs. NCPDP listened to the industr, responded to their criticisms and built industry
wide consensus. NCPDP actively solicite this increa input and involvement. Our
                                                                                     stadards
development procss has always     be   an open one and everyone involved has always been
interested in additional constrctive asistace. NCPDP and its member companies have made
significat investment in our stadads through their costly support of
                                                                     un-reimburse volunteer
work groups. Despite the controversy it was clea that no reanable organization within our
industr ever intended to prevent our development of a useble
                                                             stadard. There was never          any
doubt that we would meet with succs. NCPDP' s mission is dependent on building consensus
and we are dedicated to that mission.
                                               E - 15

 Mr. Richard          P. Kus.seruw                                                     ft:hruarJ 12 , 1992

 NCPDP Comml' nt.o;                       Draft Report OEI- OI- 91- 00820                              II 3

 The rcport s suggestion that HCFA might create its own standard may be ill advised. Recent
 expericnce with related standards for the Medicaid rebate program appers to show that HCFA
 would have benefited from a closer working relationship and early involvement with NCPDP
 and our existing standards. The NCPDP Medicaid Work Group is now actively engaged in
 work with industry representatives and HCFA offcials aimed at solving some related Medicaid
 Rebate program standard problems. We hope this work effort will be more formally encouraged
by HCF A officials. Perhaps , to save ta dollars , government agencies should make use of
volunteer assistance that ca serve them in meeting program goals. NCPDP offered early
assistance in the rebate area. We also continue to offer our assistace in
                                                                            the creation of
Medicaid POS stadards. We would heartily welcome the " cooperation... from HCFA" that your
 report suggests.



NCPDP has long been interested in helping the Medicaid program to the recognize value of
NCPDP stadards. A finding of the report indicates that the private side members of NCPDP
and our stadards do not have significat Medicad experience. This fact is not for a lack of
trying nor a lack of applicability. NCPDP has spent much time on Medicad
                                                                                     and other
government d g program effort. Many members of NCPDP are thoroughly familiar
                                                                                          with
MMIS system stadards , Medicad benefit delivery hurdles , and the functional environment of
state Medicad benefit delivery that HCFA must work within. We feel the expertise available
within our membership and our organizations experience in the stadard development process
are invaluable r sources simply waiting for state and federal government gratis consumption.

 Our primar comment is that the report could realistically recmmend that:

            Stale and federa agencies involved in the development of point of sale systems
            must be required to make use of available stndards as well as the existing
           standard settng processes and organiz.ions if they plan to utzefederafunds
           for system developmenJ or operaon.

Anything less than this type of mandate wil cause neeless               government program development
expenditures. In addition , any less of an effort by the government wiI cause
                                                                              disruption of
private side drug delivery procsses and increased costs in an America heath
                                                                              care delivery
system than ca little afford it. Not only are stadards meaingless if not widely
                                                                                             use. The
lack of the use of         stadards creates ineffciencies and information procssing   problems   that can
impact all related benefit procssors.
                                              F.inally, an probably most importt , any less of an effort
may damage the Medicad recipients accs to and quality of cae due to provider
                                                                             dissatisfaction
with a public program that already faces many provider relations challenges.

A finding of the report indicates         that a lack of   state resources and expertise are the primar
reans for state inaction on state of the ar       P~S system development. NCPDP and ANSI are
stadard       setting organizations with proven effective procsses and a weath of expert resurces.
These resources are  not   more concerned with their own interests than those of the States or of
HCFA" ' In fact , many parcipants in our organization
                                                          s stadard seting procsses are as

dedicated to quality cost effective public programs as many government employees. The, report

   . OIG      \brd ..'"   ..CO 17.



                                                       E - 16

Mr. Richard    P. Kusserow                                                       February 12 , 1992

NCPDP Comments                     Draft Report OEI-01- 91-O820                            PaJ.e # 4


may be doing a disservice to Medicaid by suggesting      otherwise.


More to the primary point of the report , we are convinced that your office is fully on target in
suggesting that HCFA pursue nealy any available vehicle to encourage and assist states in
moving drug program processing to point-of- sae management systems. Numerous statements
in the report indicate that   state Medicaid offcials do not grasp the true advantages of P~S
processing and that they are quite often misguided in their perception of some potential pitfalls.
In the interests of time we wil not provide a detaled counter argument to each of the problems
cited under the finding Stme Medicaid officials fear tha POS systems would have several
negatve effects on Stmes and their citzens. We would be happy to provide such a level of
detaled rebutta if your offce is interested.

NCPDP offers its assistace in the educational process that appes to be required in Medicaid
agencies. We pledge to assist HCFA in the development of the guide suggested by your first
recommendation. In addition to promoting stadards , the send par of NCPDP' s mission is
to provide a continuing source of reliable information (on drug program administration) that
supports the diverse interests of our membership. We ' find this educational charge to be
extremely impOrtt when we work with novice POS procssors. In fact , some industry
criticisms of past NCPDP stadardization activities have had as a mot , the theme that NCPDP
should do more to educate processors about the importce of stadardization in the POS
process. We feel we could assist HCFA in communicating the value of POS processing and
s1aGardization. . We also feel capable of providing help in the development of strategies for cost
effective state implementation of this technology. As another aside we shall not fully detal
her , we do feel there is a strong potential that states may spend neelessly on duplication of
MMIS modifications neeed to support POS procssing as your report mentions. We pledge to
assist states in the development of NCPDP stadards that meet their nees for cost effective
implementation.

To some extent , the report also appes to extend some misunderstading of P~S system value
and capabilities through the statements on page 13 and elsewhere. Many private side vendors
using POS technology also process other complex heath claims with thoroughly integrated
systems much like MMIS. Although some large private side drug administration processors
process only drug claims that are in somewhat smaller volumes than large Medicaid programs
numerous insurers integrate P~S processing      with other claims that are as voluminous and
complex as states face in Medicad. Only a few yeas ago , most claims processors in the drug
area where also dependent on batch oriented claims adjudication systems. These systems have
not always been totaly abandoned and completely replaced when P~S drug processing was
implemented.

The statement that private side drug claims are easier to process than Medicaid drug claims may
not be correct. The example cited , that of duplicate checking, is definitely incorrect and
indicates some misunderstading of P~S procssing. Private vendors check less history in
duplicate edits becuse long history checking is unnecessa in a POS environment. Medicad
agencies check far more history due to the slower process of paper claims submission and
adjudication as well as the resultat manual claims suspense relief
                                                                   procssing present in batch
systems.

                                               E - 17

 Mr. Richard P. Ku.',serow                                                              Fehruary 12 , 1992

 NCPDP Comments                      Draft Report OEI- Ol- 91-00820                              PaJ.e # 5


 In fact   , if any example of more complex processing nees to        be cited ,   Third Party Liability
 (TPL) adjudication requirements in Medicaid may temporarily be the best example. The
temporary appropriateness of this example of complexity may be short lived as TPL processing
in pharmacy among private vendors through P~S is beginning to show some activity. Pharmacy
providers have never really faced the level of true other carrer liability adjudication influence
affecting many other provider types. Medicaid states may be the first widespread
implementation of this diffcult area where we agree that P~S processing should potentially save
significat amounts. NCPDP is interested in assisting Medicad in finding workable solutions
for the TPL area.

Another area of complexity in which Medicad may be at the forefront is online-realtime or
prospetive Drug Utilization Review (DUR). NCPDP work groups have anticipated the
Medicaid programs nee for sophisticated mechanisms to implement
                                                                     , track and measure the
effectiveness of this form of DUR. Our work groups on DUR and telecommunications have
added significat capability for these processes in the new Version 3. 2. We look forward to
working with state agencies and researchers that are engaged in the OBRA- 90 mandated studies
of DUR. Interest in this area has also been piqued on the private side through the anticipated
Medicaid activity. The DUR information trasmission and measurement capabilities initially
develoPe in NCPDP stadards fur Medicad have now been extended in Version 3. 2 to all types
of cJaims covered by our recommended trasaction data sets. With regard to complexity, the
history analysis necessar for successful POS- DUR wil likely be more significat than
                                                                                     Medicaid
duplicate checking.

It rpight be successfully argued that the complexity of
                                                        private side drug processing with

numerous benefit designs , recipient cost sharing mechanisms , and reimbursement rules already
occurrng within the major private side administrators is far more complex than Medicaid.
                                                                                           The
complexity of Medicaid should not be an impeiment to POS implementation.

To conclude our general comments , we sincerely agree with your recommendations that HCFA
NCPDP , the American National Stadards Institute (ANSI) and the State Medicaid Directors'
Association (SMDA) should work together toward the goal of developing stadard
                                                                                  electronic
claims formats for state Medicaid use. At our annual meeting this past week
                                                                             , the board of
trustees voted to make       a two year commitment     to ANSI membership          and to support our
involvement in their stadard setting process. During this time , NCPDP will
                                                                             actively pursue
how our succssful drug standards may be brought in line with ANSI initiatives.
                                                                               We pledge to
continue ongoing efforts to work with government organizations and wil initiate
SMDA. We strongly encourage more active state program involvement in our contact with
processes. NCPDP welcomes additional commentary on our new
                                                                             stadard setting
                                                                Medicad trasaction data sets
contaned in the Version 3. 2. Please note that these new stadards
                                                                  for Medicad were created
with the help and involvement of a number of large state fisca
                                                               agent organizations. NCPDP
is actively assisting the Arkasas Medicad Fibs development of POS drug processing. We shall
continue to provide our expertise and consultative assistance to any
                                                                        state agency, fiscal
intermediar, processor or government agency that requests help.


We strongly agree that HCFA must encourage standard use although we tend toward stronger
wording. The suggestions that a set of rewards for
                                                   stadard use or that enhanced              funding be

                                                 E - 18

.-.     /'          ..        - , - (




Mr. Richard       P. Kusserow
                                                                                  Fehruary 12 , 1992
NCPDP Comment"                           Draft Report OEI-OI- 91-00820                     Page # 6

denied for systems that do not use standards are perfectly appropriate in our opinion. History
shows that simple encouragement by HCFA may not be enough to bring about uniformity in
Medicaid. The definite financial value that exists in moving states to P~S
                                                                                processing can be
emphasized most effectively if the federal government provide direct financial incentives and dis­
incentives to state agencies.

NCPDP looks forward to working more closely with the Medicaid program                     on P~S
implementation and of developing P~S system capabilities to more positively influence drug
therapy quality and cost effciency.

Thank you again for the opportunity           to provide comment. If we ca provide any additional
information ,     please do not   hesitate to contact us.




LeAnn,Cle\'e'rly	                       utive Director
      --./vL             .J

& Ronald P. Jordan              fedicaid Work Group Chainnan & Board Member
cc:	         Regional Inspector General - Mark R. Yessian , Ph.
             OIG Report - Lead Program Analyst - David Schrag




                                                    E - 19

                     OIG REPONSE TO NCPDP            COMM
We have updated our report s sections on NCPDP standards to reflect the
promulgation of Version 3. 2. We hope that NCPDP is successful in securig the
cJaims processing industry s commitment to using it. We have deleted language
suggesting that HCFA create its own standard claims format and hope that HCFA'
and the States ' needs can be met with Version 3.

We have chosen not to use stronger language in our recommendations on standard
cJaim formats to HCFA and the States. WhiJe we beJieve that standards are
essential component of cost-effective P~S systems, we also beJieve that they are more
likely to win acceptance in an atmosphere of cooperation than one of requirements
and penalties.

In saying that private vendors " are more concerned with their own interests than those
of the States or of HCF A, " we do not suggest that they seek to undermine public
programs. Nor do we suggest that private vendors should not supply information on
P~S technology; in fact , we suggest that HCFA seekit out. We merely suggest that
private companies are first and foremost responsible to their shareholders and to
seeking profits. As these profits may come at the expense of the Medicaid program
we warn HCF A and the States against relying too heavily on private vendors ' advice.

With regard to the relative complexity of private versus public health cJaims , we made
a slight modification to the examples given on page 13. We note that regardless of
how much history checking is necessary in a P~S environment , States currently use
more history than private plans. This wil continue to be true unless States make
deliberate efforts to adjust their policies as they move to P~S systems.




                                        E - 20

                                                    , "




                       APPENDIX
                                   NOT

For overvews of P~S cJaims management , see " Electronic Claims: A
Revolution in Progress ComputerTalk for the Pharmacist September/October
1988, pp. 15- , 22- 26; and W. A. Lockwood , Jr., "The New Era of Paperless
Claims American Pharmacy,      s. 30, no. 1 (January 199), pp. 20-22.

Adjudication involves checking a cJaim for errors , verifyng that the servce is
covered , and determining the amount that should be paid.

  L. 101- 508,Sec. 440l(a)(3), adds the foJIowing language as Sec. 1927(h)(1) of
Title XIX of the Social Security Act: " the Secretary shaJI encourage each State
agency to establish , as its principal means of processing cJaims for covered
outpatient drugs under this title , a point-of-sale electronic cJaiMs management
system , for the purpose of performing on- line, real time eligibility verifications
cJaims data capture , adjudication of cJaims , and assisting pharmacists (and other
authorized persons) in applying for and receiving payment.

The State estimated savings of $2 538 112 over three months in 199 (New
York State Department of Social Servces Day Specifc Savings Quarterly Report
Based on Disenrollments During Period: 07/90- 09/90  April 2 , 1991 , p. 4. ) We
multiplied this figure by 4 to yield a 12-month estimate of $10 152 448. New
York City residents are not yet subject to day-specific eligibility, because the
city s master eligibilty file cannot be updated frequently enough. The State
estimates that if New York City residents were also subject to day-specific
eJigibility the savings would rise to $22 880 454   per quarter ($91   521 816 per
year). The State  s methodology is described in the report cited above. The
Office of Inspector General has reviewed the report and we believe the logic to
be sound and the estimate to be reasonably accurate. We did not , however
conduct an independent analysis of the original data nor of the assumptions
that underlie the model used for estimating savings. Therefore , although we
have no reason to doubt the vaJidity of New York' s estimate , we can neither
vouch for its precision nor affirm that it is based on the best possible model.

Telephone conversation with EMEVS Director , New York Department of
Social Servces , July 17 , 1991.

New York State Department of Social Services Electronic Medicaid Eligibility
Verification (EMEVS) Overview " no date (1989?), p. 2. The servce threshold
function is described as foJIows: ' The Department wil implement a service
limits systems (sic) which is expected to save over $200 milion annually.
Doctors , dentists , laboratories , pharmacies and clinics wil be required to call


                                    F - 1

       (EMEVS) at the time of servce to ascertain in addition to the eligibilty of a
       cJient , the cJient's status with respect to the number of servces the cJient has
       received in one year.   A positive response from EMEVS will result in an
       authorition record generated and transmitted to the fiscal agent who will
       require this authorition before paying a Medicaid claim.

       A group of pharmacists sued New York State on the grounds that EMEVS'
       post and cJear function discriminated against them and that it imposed
       unreasonable delays in payment. The State     won.   Sutphin Phannacy, Inc. 


       Perales    S. District Court , Southern District of New York, No. 90 Civ. 760
       (WCC), July 26 , 1991.

       Commonwealth of Massachusetts Operational Evaluation Report for the
       Departent of Public Welfare s Recipient Eligibilty Verification System October
       199 , p. A1S. This estimate incJudes total Medicaid savings , without regard to
       Federal matching rates. The State estimates an additional $3. 2 milion in
       savings on 100 percent State- funded health care expenditures. A description of
       Massachusetts s methodology and its limitations is contained in appendix E.

       Commonwealth of Massachusetts Operational Evaluation Report p. A21.

10.	   We define a P~S system as one that operates in real-time and uses advanced
       technology such as P~S terminals or personal computers at the providers
       locations. We excJude systems that operate in batch mode or are limited to
       automated voice response (A VR). Batch mode systems cannot process cJaims
       while recipients are stiI in contact with providers , and A VR systems cannot
       perform functions beyond eligibility verification.

11.	   Seven States (Indiana , Michigan , Mississippi , Nevada , New Jersey, Oklahoma
       and Pennsylvania) are adding automated voice response systems for eligibility
       verification. Kansas , Maryland , and Massachusetts have plans to improve their
       existing eJigibiJty verification systems. Montana , North Dakota , and South
       Dakota plan to make other improvements in their eligibility systems.
12.	   Eleven States have definite plans to improve their cJaims submission
       capabilties without implementing true P~S cJaims submission. Four (District
       of Columbia , Georgia , Nebraska , and North Dakota) will begin to allow on- line
       batch cJaims submission or will try to increase the percentage of claims that are
       submitted on- line. Seven (Delaware , Idaho , Kansas , Montana , Nevada , New
       Jersey, and South Dakota) will try to increase the percentage of claims that are
       submitted on disk or tape.
13.	   Shortly before OIG , the American Public Welfare Association (APWA) and
       HCF A conducted their own surveys of State Medicaid programs. Their survey
       instruments incJuded questions about plans to develop P~S pro- DUR , so ours
              However, some States gave us information about their plans to
       did not.
       implement P~S pro- DUR anyway, and the other surveys ' results did not


                                          F-2
                    , "




       address the issue of definite plans versus preliminary discussions. Because of
       differences in survey methodology and in interpretation of questions and
       responses , it is difficult to combine the responses from the three surveys.

14.	   J. Horvath Medicaid Management Information Systems: Provider Partcipation
       Cost Containment Initiatives: State Characteritics American PubJic Welfare
       Association , Summer 1991 , p. 19.

15.	   Pro- DUR is not among the functions of POS systems that OBRA 90 requires
       the Secretary to encourage. OBRA 90 does , however , require the States to
       implement pro- DUR (not necessarily as a component of P~S systems) by 1993
       and authories up to 10 demonstration projects to evaluate pro- DUR as a P~S
       system function. It seems cJear , therefore , that Congress envisioned pro- DUR
       as a natural , if not necessary, component of P~S systems.


16.	   This is an approximation based on the OIG , APWA, and HCFA surveys.

17.	   Commonwealth of Massachusetts            Operational   Evaluation Report   p. A26.

18.	   Telephone conversation with EMEVS Director , New York Department of
       Social Servces (DSS), July 17 , 1991 , and personal communication from DSS
       February 25 , 1992. The $3. 5 milion development cost included $2 milion for
       the purchase of point-of-servce terminals for provider offices.
19.	   Congressional leaders , informed of States ' complaints , admitted that the time
       Jimit was undesirable. They introduced a technical amendment to repeal it.
       However , HCF A then informed Congress that enhanced funding for P~S
       systems would be available after FY 1992 whether or not OBRA 90 were
       amended. Enhanced FFP would be granted under the same authority, HCFA
       said , as it was before OBRA 90 , when it was granted for EMEVS and REVS.
       Congress dropped the technical amendment.

20.	   For example ,  Arkansas s bid for P~S device and plastic ID card technology
       resulted in a protest by the losing bidder , adding even more time and expense
       to the effort.

21.	   Memo from Director , Medicaid Bureau, to all HCF A Regional Administrators
       March 15 , 1991 ,   p. 3.


22.	   M. J. Richter Staying Connected: Disaster Recovery for Government
       Telecommunications                 September 1991 , pp. 37- 50. The potential for
                                   Governing,

       breakdowns was confirmed by a respondent from New York , who added that in
       comparison to traditional claims- processing systems , P~S systems can make
        bigger mistakes faster.

23.	   Examining the Medicaid eligibility requirements of other benefit programs was
       beyond the scope of this inspection. However , if other programs do indeed


                                                F-3
       mandate whole-month eJigibilty, States wiJI not be able to implement day-
       specific eligibilty. This subject is deservng of future study.
24.	   In response to an OIG request , the Massachusetts Law Reform Institute
       (MLRI) surveyed legal servces programs throughout Massachusetts. Four
       programs responded. The text presented in this paragraph is based on a
       summary of those responses prepared by MLRI. In comments to our draft
       report , the Massachusetts Department of Public Welfare disputed some of the
       positions expressed by MLRI's respondents.

25.	   In 8 States with no intention of changing their cJaims submission procedures , an
       average of 57 percent of cJaims are submitted electronicaJIy. In 31 States that
       were discussing or had definite plans to change , the average is 43 percent.
       (These figures are drawn from data we obtained in our survey of State
       Medicaid agencies.

26.	   Pharmacy claims experienced a low denial rate (9.3% , n=27 States) in
       comparison to hospital claims (21.8%, n=25), physician cJaims (23. 9%, n=25),
       and misceJIaneous cJaims (17.    , n=24). Only nursing home claims were
       denied less frequently (8.0% , n=24). (These figures are drawn from data we
       obtained in our survey of State Medicaid agencies.

27.	   A bil processor is responsible for evaluating a claim and determining how
       much , if anything, should be paid. In the Medicaid environment , a bil
       processor could be the Medicaid agency itself, a designated fiscal agent , or
       another private contractor selected to operate the P~S system.

28.	   Telephone conversations with chair of HCFA 1500          work group, April 18 and
       September 3, 1991.
29.	   Telephone conversation with chair of ANSI ASC X12 Insurance Sub-
       Committee , April 3 , 1991. See also ANSI ASC X12 Insurance Sub- Committee
       Minutes, Tarpon Springs ,    Fla. , June 2- 8,   1991.


30.	   For 31 respondents that had received information from               HCFA, the mean rating
       for lack of guidance was 2. 51. For 19 respondents        not received
                                                                that had

       information from HCF A, the mean rating for lack of guidance was 3. 57. (1 =
        not at aJI a factor; 5 = " extremely important factor.

31.	   Telephone conversation with professional staff, Senate Special Committee on
       Aging, February 27 , 1991.

32.	   Section 1903(   a )(3) of Title XIX of the Social Security Act.
33.	   See Sec. 4401(c)(1).




                                             F-4
34.	   Comments submitted to the Health Care Financing Administration by the
       Office of the U. S. Senate Special Committee on Aging, Senator David Pryor
       Chairman Implementation Issues Regarding the Medicaid Prent Pharmaceutical
       Purchasing Provisions of the Omnibus Budget Reconciliation Act of 1990 (PL.
       101-508), April 1991 , p. 11.

35.	   Letter from Chairman , U. S. Senate Special Committee on Aging, to
       Administrator , Health Care Financing Administration , September 13 ,   1991.




                                        F - 5

